<html>
<title> - A REVIEW OF THE 2011 FLOODS AND THE CONDITION OF THE NATION'S FLOOD CONTROL SYSTEMS</title>
<body><pre>[Senate Hearing 112-982]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-982

  A REVIEW OF THE 2011 FLOODS AND THE CONDITION OF THE NATION'S FLOOD 
                            CONTROL SYSTEMS

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov

                               __________

 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-966 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 





















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 18, 2011
                           OPENING STATEMENTS

Boxer, Barbara, U.S. Senator from the State of California........     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     7
Johanns, Hon. Mike, U.S. Senator from the State of Nebraska......    12
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    12
Grassley, Hon. Charles, U.S. Senator from the State of Iowa......    13
Conrad, Hon. Kent, U.S. Senator from the State of North Dakota...    13
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........    18
Johnson, Hon. Tim, U.S. Senator from the State of South Dakota...    29
Nelson, Hon. Ben, U.S. Senator from the State of Nebraska........    30
Thune, Hon. John, U.S. Senator from the State of South Dakota....    31
Blunt, Hon. Roy, U.S. Senator from the State of Missouri.........    41
Hoeven, Hon. John, U.S. Senator from the State of North Dakota...    45
Carnahan, Hon. Russ, U.S. Representative from the State of 
  Missouri.......................................................    49
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    56
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    57
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................   182

                               WITNESSES

Darcy, Hon. Jo Ellen, Assistant Secretary of The Army, Civil 
  Works; Accompanied By: Major General Michael Walsh, Commander, 
  Mississippi Valley Division, Brigadier General John Mcmahon, 
  Commander, Northwest Division, Colonel Christopher Larsen, 
  Acting Commander, North Atlantic Division......................    60
    Prepared statemen............................................    63
    Response to an additional question from Senator Boxer........    71
Responses to additional questions from:
    Senator Lautenberg...........................................    72
    Senator Cardin...............................................    73
    Senator Whitehouse...........................................    74
    Senator Inhofe...............................................    75
Galloway, Gerald, E., PE., Ph.D., Glenn L. Martin Institute 
  Professor of Engineering, University of Maryland...............    91
    Prepared statement...........................................    94
Responses to additional questions from:
    Senator Boxer................................................   104
Responses to additional questions from:
    Senator Inhofe...............................................   108
Larson, Larry A., P.E., CFM, Executive Director, Association of 
  Floodplain Managers............................................   111
    Prepared statement...........................................   113
Responses to additional questions from:
    Senator Boxer................................................   132
    Senator Inhofe...............................................   134
Mattelin, Buzz, President, Lower Missouri Coordinated Resource 
  Management Council; President, Montana Association of 
  Conservation Districts.........................................   136
    Prepared statement...........................................   138
    Responses to additional questions from Senator Inhofe........   141
McGean, Terence J., P.E., City Engineer, Ocean City, Maryland....   142
    Prepared statement...........................................   144
    Responses to additional questions from Senator Cardin........   148
Lorino, Captain Michael R., Jr., President, Associated Branch 
  Pilots.........................................................   155
    Prepared statement...........................................   157
Dunnigan, Brian, Director, Nebraska Department Of Natural 
  Resources......................................................   165
    Prepared statement...........................................   167
Wharton, Hon. A.C., Jr., Mayor, City Of Memphis, Tennessee.......   171
    Prepared statement...........................................   172

                          ADDITIONAL MATERIAL

Statements:
    American Rivers..............................................   182
    Hon. Jerry Moran, U.S. Senator from the state of Kansas......   186
    Dr. Nicholas Pinter, Professor, Southern Illinois University.   187
    Kanasas Water Office.........................................   191
    The Nature Conservancy.......................................   193
    Brad Lawrence, Director of Public Works......................   195
Letter from Governors or their representatives of seven states 
  directly affected by the Missouri River........................   209
Statements:
    Jeff Dooley, Manager, Dakota Dunes Community Imporvement 
      District...................................................   211
    Mayor Laurie R. Gill, Pierre, South Dakota...................   213
    Merle Scheiber, on behalf of the Fort Pierre Frontier Road 
      Residents..................................................   221
 
  A REVIEW OF THE 2011 FLOODS AND THE CONDITION OF THE NATION'S FLOOD 
                            CONTROL SYSTEMS

                              ----------                              


                       TUESDAY, OCTOBER 18, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
[chairman of the full committee] presiding.
    Present: Senators Boxer, Inhofe, Baucus, Cardin, 
Whitehouse, Vitter, Alexander, Johanns, Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The Committee shall come to order.
    We are very pleased to have a number of colleagues from off 
the Committee here today. I think it shows how important our 
work is dealing in preventing floods.
    I apologize, the Ranking Member and I are doing some work 
on a very important issue on public works. So if there is a 
little bit of diversion, please understand.
    What we decided was that we would make very brief opening 
statements, Senator Inhofe and I, just 3 minutes each, and then 
we would start with the members in order of seniority, with 
Senator Grassley going, then Senator Conrad, Senators Roberts, 
if he is here, Senator Johnson, Senator Nelson. Then on Panel 
2, we have Senators Thune, Blunt, Hoeven and Congressman 
Carnahan. So that is the plan.
    Very quickly, today's hearing will examine how our Nation's 
flood control systems responded to the flooding events of 2011. 
We need to take a hard look at that response and see where we 
can improve our response.
    I welcome all the distinguished witnesses here today who 
will help give out Committee a picture of what happened, what 
worked, what didn't worked. I appreciate Assistant Secretary of 
the Army, Jo Ellen Darcy, who is joining us, along with the 
Commanders of the three Corps divisions with jurisdiction over 
these events: Major General Michael Walsh, from Mississippi 
Valley Division; Brigadier General John McMahon, from Northwest 
Division; and Colonel Christopher Larsen, with the North 
Atlantic Division.
    I also welcome all of the local witnesses who made the trip 
to D.C. who will bring a very important perspective to us. And 
of course, I welcome our Senate colleagues. It is really 
unprecedented, Senator Inhofe, how many colleagues are here 
today. That is going to move us forward as we look at how to 
write a new Water Resources Development Act bill, the new WRDA 
bill.
    As you know, because of the earmark controversy, we have to 
change the way we do this bill. But I want to give good news to 
those who are here. Senator Inhofe and I, working with our 
staffs, are figuring out how to move forward. We will work with 
all of you Senators so that you feel comfortable that we can 
meet the needs of your State and still manage to avoid the 
pitfalls of the dreaded word, earmark.
    Just for the record, speaking for myself, my own view is, I 
believe we know what is best for our States. And I am a person 
who believes that we should continue doing those legislative 
priorities that have been given the name earmark. But we are 
not going to get into that today. We are going to figure out a 
way to fund WRDA and meet the requirements of the Senate.
    So we will be moving forward. Our Nation's flood control 
systems require continued investment and improvement. Today's 
hearing will help us understand how we are better prepared for 
future flood events.
    Again, I want to thank all the witnesses. This is a 
bipartisan moment for this Committee, as is the Highway Bill. 
So I know we can work together, and no one makes that happen 
better, frankly, than my very good friend, Senator Inhofe. I am 
happy to call on him.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. I do agree with 
that. Although Oklahoma has not experienced the same flooding 
impact as some of our colleagues on the two panels that will be 
before us, the ripple effect of the Mississippi River flood 
event impacted my constituents back home.
    I think one of the best kept secrets around is that we in 
Oklahoma actually are navigable. People don't know that. We 
have a navigation way that came all the way up. In fact, my 
father-in-law, who I might add was a strong Democrat in the 
State legislature, was the author of the bill that established 
all of that. So we have always been involved in that. And of 
course, anything that affects the McClellan-Kerr Arkansas River 
navigation system affects us.
    The Corps is preparing assessment of some of the damage, as 
well as formulating estimates of what it will cost to repair 
our flood control infrastructure. Madam Chairman, I do have a 
lengthier statement which I just want to have as part of the 
record. But I want to say that we are both anxious to tackle 
two major events. One is the Transportation Reauthorization 
Bill and the other is WRDA.
    I have to say this also, going back from memory, I think I 
was the only conservative that voted against the earmark, 
recognizing that when you don't do earmarks, or don't do your 
appropriation and your authorization, as Article I, Section 9 
of the Constitution tells us to do, then automatically the 
President does that. And the President doesn't know what our 
needs are in Oklahoma. I am not sure he has ever been to 
Oklahoma.
    And with that, thank you for having this Committee hearing.
    [The prepared statement of Senator Inhofe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Boxer. I will let that one go.
    [Laughter.]
    Senator Boxer. So here is where we are. If Members could 
make 3 minutes openings, and that is what we are going to ask 
all our Senators to do.
    Senator Inhofe. We had one member, Jerry Moran wanted to be 
here. He can't be here, so I ask that his statement be entered.
    Senator Boxer. We will put it into the record at the 
appropriate place.
    [The prepared statement of Senator Moran was not received 
at time of print.]
    Senator Boxer. Senator Cardin, you are next. At some point, 
I am going to have to hand you the gavel due to my schedule. We 
are so thrilled that you chair the appropriate subcommittee on 
water, so please go ahead.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, thank you very much for 
calling this hearing. I think it is an extremely important 
hearing, and I want to hear from our colleagues who have 
experienced first-hand the incredible challenge we have had on 
flooding this year. I am very interested in hearing from our 
panel.
    I will ask consent that my entire statement be made part of 
the record.
    But I just want to do share very, very quickly with my 
colleagues the effectiveness of the flood control shore erosion 
issues in the coast of Maryland that worked very well during 
these two storms. We have invested a lot of resources into 
protecting the ocean front at Ocean City, Maryland. We have 
invested money, but it paid off big time. We saw that during 
these past two storms when we had record levels of rainfall and 
risk. We had to evacuate Ocean City, but the amount of damage 
was kept to a minimum because of the investments that we made 
on the sand replenishment and on the dunes.
    I might also say that the Susquehanna River was in danger 
of severe flooding. We had to evacuate two of our towns. But 
once again, the management system worked well.
    So Madam Chairman, I will put my entire statement into the 
record and I look forward to our witnesses, particularly we 
have Terry McGean, who is the engineer for the town of Ocean 
City, who will testify on a later panel as to the value we 
received from the precautionary work that was done to protect 
Ocean City.
    [The prepared statement of Senator Cardin follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
        
    Senator Boxer. Thank you, Senator.
    Senator Johanns.

            OPENING STATEMENT OF HON. MIKE JOHANNS, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Johanns. Madam Chair, let me start out and just say 
also, thank you for holding this very important hearing today.
    This is a day for bipartisanship. In fact, it started back 
in July when 14 Senators, all 14 Senators along the Missouri 
River, sent a letter requesting this hearing. I thank the Chair 
and the Ranking Member for honoring the request.
    I probably won't soon forget the shock I felt this spring 
when it became clear to me that Nebraskans would soon be 
dealing with a flood of historic proportions. We had seen 
reports of large snow pack on the Rocky Mountains and across 
the Great Plains. But then in the last 2 weeks of May, several 
State in the Missouri River Basin experienced rainfall at 200, 
300 and even 400 percent above average?
    Total runoff for 2011 is project to reach almost 230 
percent of the normal level and far exceed the 2007 record of 
49 million acre feet. Now, no doubt about it, this presented 
immense challenges for the Army Corps personnel as they tried 
to deal with this situation.
    I do want to express my gratitude to the many Federal and 
State employees who spent countless hours combating the flood 
waters. But it seems clear to me that the river management 
system did not work. That is why we are here today. Granted, 
the snow pack and rainfall that caused this year's flood was, 
no doubt about it, exceptional. But we must now figure out what 
changes should be made to protect people's farms, their 
livelihoods, their homes. It was only within the last few 
weeks, as a matter of fact, that some people even got back to 
their homes because they had been underwater.
    We could not have expected the Corps to completely mitigate 
the effects of these floods. It just wasn't humanly possible. 
But it is appropriate to ask what data was available that could 
have been used to alleviate the pressure on the flood control 
systems earlier this year. To the extent it is feasible, we 
should also consider if there is a need for updates to the 
master manual's procedures in the annual operating plan.
    I will wrap up my comments today by expressing my concern 
that notwithstanding the enormous problems we have had over the 
last year, it looks like we are headed into another very 
difficulty situation in the year ahead, with no changes being 
made. So I appreciate the hearing, Madam Chair. I look forward 
to the witness testimony.
    Senator Boxer. Thank you, Senator.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chair. I also appreciate 
the hearing, and welcome our colleagues and those who are 
testifying.
    My top priority is to do all I can to help the Federal 
Government participate in repairing President's Island near 
Memphis, as well as other damage near Lake County, which is the 
beginning of where the Mississippi River comes down along 
Tennessee, because the longer we wait to do that, the more we 
endanger the creation of jobs in our region at a time when 
unemployment is more than 9 percent. That is my major goal.
    Like the other States represented here, we have had some 
huge floods the last 2 years. The reason why so many Senators 
are here is the Mississippi River and tributary flood control 
project is the largest flood control project in the world. We 
have had these two phenomenal events in 2010 and 2011. In 
Tennessee it was a 1,000 year flood in 2010, and then in 2011 
the Corps of Engineers fought this flood for 47 straight days.
    Mayor A.C. Wharton is here from Memphis to talk about what 
happened there and the importance of our work on President's 
Island. But I want to compliment Mayor Wharton and the 
leadership of Shelby County and Memphis for their preparedness. 
I have not seen a more effective organization in a long time, 
that worked hard to avoid damage, rather that just cleanup 
after it.
    We hope to focus in this hearing on other things we can do 
to prevent future damage. I would say to the Corps of Engineers 
that the work it did during the flooding event in 2011, insofar 
as what we saw in Tennessee, was a very good job. After 2010, 
my emphasis to the Corps of Engineers, particularly for the 
flooding around Nashville, was to see if we could find a way to 
take the Federal agencies and make our warnings about floods as 
effective as our warnings about tornado. You can turn on 
television and see the tornadoes coming down your road in 13 
minutes.
    Well, we can't quite do that with rising water. But the 
tornado warnings were greatly improved by cooperation from 
agencies over the last 10 or 12 years. I think we should work 
with the Weather Service and Army Corps and other agencies to 
see if we can let the cities and towns and people up and down 
the Mississippi River and other areas know when flood waters 
are coming.
    I thank you, Madam Chairman, and I look forward to the 
hearing.
    Senator Boxer. Senators, we are now ready to hear your 
voices and hear your perspectives. We will start with Senator 
Grassley. Each of you will have 3 minutes.
    Go ahead, Senator.

          OPENING STATEMENT OF HON. CHARLES GRASSLEY, 
              U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Thank you, Senator Boxer, Senator Inhofe, 
for your leadership in this area and for holding a very 
important hearing because of the devastation from the Missouri 
River flood of 2011.
    I am going to put a long statement into the record and try 
to summarize very quickly.
    If you know the history of Pick-Sloan flood projects, they 
were for flood control. Now, over the course of several 
decades, a Corps manual has been put forward that was finally 
finalized in 2006 that would probably try to manage the river 
for several reasons beyond flood control, for recreation, 
irrigation, municipal water, environmental reasons and for 
commerce.
    It took about 10 to 15 years to develop that manual that 
manages the river and the control structures. It seems to me 
that from the devastation that happened this year, you have to 
have a revision of the manual to put more emphasis upon flood 
control, the original purposes of the structures in the first 
place. And since it took a decade or more to develop the manual 
that now governs, we have to have, in just a few months, a 
revision of that manual that puts emphasis upon flood control.
    It is pretty difficult to blame the Corps for what went 
wrong when they have so many things to take into consideration. 
Flood control is probably very much a minority of the 
considerations. With all the damage that has been done to 
farming, to homes, to small businesses and everything, it seems 
to me we have to start putting people first on consideration in 
this manual. Putting people first would be trying to mitigate 
the damage that was done by flooding. And not have as much 
concern about recreation, irrigation, municipal water, 
environment, environmental species, commerce. When you see all 
of the damage that was done by this flood, more consideration 
has to be given to flood control than has been done in this 
manual that now governs. Rewrite the manual and do it very 
quickly.
    Thank you.
    [The prepared statement of Senator Grassley]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Boxer. Senator, thank you. We know all of you have 
to speak and leave, and we thank you so much for being here.
    Senator Conrad.

            OPENING STATEMENT OF HON. KENT CONRAD, 
          U.S. SENATOR FROM THE STATE OF NORTH DAKOTA

    Senator Conrad. Thank you, Chairman Boxer and Ranking 
Member Inhofe, for holding the hearing. We very much appreciate 
that.
    Senator Cardin, thank you for being here, and Senator 
Alexander, Senator Johanns. And thank you for your opening 
statements, because I think they reflect the concern that all 
of us share.
    I think it is important to my constituents and certainly to 
me that we fully review the events of this last year. Because 
something went terribly wrong. The flooding was epic, there is 
no doubt about that. In my State of North Dakota, we were hit 
by record floods, records that so far exceed anything ever in 
recorded history, that you have to wonder what is happening.
    I just say to those who are listening, two major river 
systems in our State, the Missouri and the Souris, were 
affected. This headline from the Minot Daily News really says 
it all: Swamped. This is our fourth largest town. In 48 hours, 
the level of the flood was increased, the projection, 10 feet. 
There is no way you can respond in 48 hours to an increase in 
the projection of 10 feet. That is humanly not possible to 
defend a town.
    A wall of water was headed our way. More than 11,000 
residents were evacuated. This is three and a half feet higher 
in terms of a flood level than the record recorded flood of 
1881. So we are dealing with something that is so far outside 
our experience that it is hard to even talk about.
    The damage to this town was dramatic. More than 4,000 homes 
were inundated for weeks, and many of them just completely 
destroyed. Rebuilding this city will take years.
    Bismarck, our capital city, and Minot and Mandan, its 
sister city, which both straddle the Missouri, were also 
affected by record flooding due to historic releases from the 
Garrison Dam. For those along the Missouri River, one of the 
most frustrating aspects of the problem was the ever-changing 
forecast, from a forecast of a release of 110,000 CFS to 
ultimately 150,000 CFS, ten times what is normal. This is the 
highest releases ever in recorded history.
    Flooding of this magnitude had not been seen since the 
Garrison Dam became operational. Hundreds of families were 
forced from their homes, including two of my own employees, one 
of whom will not be back into her home until some time next 
year. She and her family have been living in my apartment 
because their house is absolutely so badly damaged that they 
can't get back.
    Here is just one example of the havoc this flood caused. As 
you can see, this family, like many others, had built a sandbag 
dike around their home. The volume of the water was so powerful 
and moved with such speed that it cut a new channel, and it 
created a scour hole that claimed this home. Focus in the near 
term must be clearly on repairing the damage to flood control 
systems. We also need additional Federal support for families 
and businesses, so they have some chance to recover.
    Many of my constituents are concerned that they will face 
another flood next year, because we have record amounts of 
water in the system. And the forecast is for more record 
rainfall. I believe that requires us to review the operations 
of the master manual. Just sticking with what has been done is 
not good enough.
    Finally, I want to thank very sincerely both General Walsh 
and General McMahon for their service, and the service of their 
entire team. They did wage truly heroic efforts to defend these 
cities and towns. And we will never forget those efforts.
    At the same time, I think we would be derelict in our duty 
not to recognize that just following the existing master manual 
operating instructions is not going to cut it in these 
extraordinary weather conditions we confront.
    I thank the Committee.
    Senator Boxer. Thank you so much, Senator Conrad.
    Senator Roberts, we welcome you.

            OPENING STATEMENT OF HON. PAT ROBERTS, 
             U.S. SENATOR FROM THE STATE OF KANSAS

    Senator Roberts. Thank you, Madam Chairman. And thank you 
for leading the effort to hold this hearing, along with my good 
friend, Jim Inhofe, who has been on this issue for a 
considerable amount of time.
    Seventy-nine percent of Kansas is currently experiencing 
drought conditions, not flood conditions, but drought 
conditions earlier this year. I don't know what we did to 
Mother Nature, but she has not acted in a very welcome way.
    Starting in May and lasting through September, however, 
Kansans living along the Missouri River were engaged in 
protecting their property due to record amounts of water. 
During that 5-month stretch, four Kansas counties, Donovan, 
Atchison, Leavenworth and Wyandott, were about one serious 
rainfall away from catastrophe.
    As was explained to me, Gavin's Point acts as the spigot, 
and this summer, the spigot was wide open. The Corps had little 
or no management control, once the water was released from 
Gavin's Point. Thankfully, no major rain events occurred, 
otherwise I would be sitting in front you discussing the loss 
of life and significant property damage.
    I say that very humbly, because many Kansans did experience 
major property damage, experiencing everything from a local 
agricultural seed business and homes and businesses to 
agriculture fields were damaged and destroyed, not to mention 
the costs endured by local and State government to sandbag and 
post National Guard troops on the levees to watch for sand 
boils and water overtoppings.
    Back in July, I joined my friend and former colleague, 
Governor Sam Brownback, on a tour of the flooding, going from 
Kansas City to Elwood to Atchison. We visited the first 
responders and the government officials, offered assistance. 
Time and time again we heard of how the river has been 
mismanaged. Now in my view, the 432-page Missouri River master 
manual needs to have additional emphasis placed on the top 
priority, and that priority is flood control.
    I have heard from more than one upset farmer who has had 
his field flooded multiple times in the past decade that the 
tail is wagging the dog, and too much emphasis has been put on 
recreation, fish and wildlife, specifically through a spring 
pulse and water quality.
    Now, these purpose are congressionally approved. They 
should not hinder the primary purpose of flood control. The dog 
should not wag its tail, and Congress should ensure the Corps 
is putting flood control above all else. That is why earlier 
this summer Senator Johanns and I introduced S. 1377, a bill 
requiring the Corps to take into account all available 
hydrologic data in conducting Missouri River Basin operations.
    I know that nobody knows when the next rainfall event will 
occur, how much rain will fall in a given amount of time. Nor 
will anyone be able to accurately forecast this winter's snow 
pack. But we now have a new precipitation record for the upper 
Missouri. Congress must ensure this latest data is incorporated 
and used in a timely fashion and any and all Army Corps of 
Engineer management decisions in order to limit the greatest 
extent possible a flood of this year's magnitude from ever 
occurring again.
    I thank the Chair.
    [Prepared statement of Senator Roberts follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Boxer. Thank you, Senator.
    Senator Johnson, we are very happy you are here. Please 
proceed.

            OPENING STATEMENT OF HON. TIM JOHNSON, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Johnson. Thank you, Chairman Boxer and Ranking 
Member Inhofe, for holding this important hearing to examine 
our flood control infrastructure in light of this year's 
historic flooding. I appreciate the opportunity to provide some 
brief remarks.
    Flooding is our Nation's most common form of natural 
disaster, and is also the most costly. Though we can never 
fully eliminate the risk of flooding, it is crucial that we 
continually evaluate the condition of our flood control 
infrastructure and the effectiveness of our management 
practices.
    In South Dakota, we are no strangers to natural disasters. 
But this year's Missouri River flooding has been unprecedented 
in scope and duration. People have been displaced from their 
homes and businesses for months. And they are facing long 
months of cleanup ahead. Both utilities and drinking water 
infrastructure have suffered significant damage in communities 
and on Indian reservations along the Missouri. The economic and 
emotional impacts of the flooding have been tremendous.
    What has been particularly frustrating for many South 
Dakotans is that they are living among some of the largest and 
most complex flood control infrastructure in the United States. 
South Dakota is home to four of the six mainstream dams and 
reservoirs constructed by the Corps of Engineers after passage 
of the Flood Control Act of 1944. Built to measure up the 
historic flood of 1881, these dams and reservoirs were not 
sufficient to accommodate the runoff of 2011.
    Management of this system has always created tension in the 
Basin. But in light of this year's flooding, concern over river 
management is higher than ever. In addition to our physical 
infrastructure, we need to consider mitigation and planning 
options that can limit damages when flooding occurs.
    As Chairman of the Banking Committee, I have been working 
with my colleagues to reauthorize the National Flood Insurance 
Program, which is the premier means for individuals and 
businesses to mitigate their risks of financial loss in the 
event of flooding. There are no easy answers, but the issue of 
flood control on the Missouri River is vitally important to the 
economy and people of South Dakota.
    I look forward to working with you to better understand the 
risks and improve flood control in the Missouri River Basin. 
Thank you, Chairman Boxer and Ranking Member Inhofe, for 
holding this important hearing.
    Senator Boxer. Thank you, Senator.
    And last but not least on this opening panel, before we 
hear from the rest of our colleagues, Senator Ben Nelson. 
Welcome.

             OPENING STATEMENT OF HON. BEN NELSON, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Nelson. Thank you. Thank you, Madam Chair and 
Ranking Member Inhofe for holding today's hearing.
    I am particularly grateful that the Committee has given us 
the opportunity to talk about the State's experiences. I 
encourage the Committee to very closely examine what led to 
such unprecedented flooding and help develop the necessary 
procedures so that future events will be less destructive.
    In Nebraska, we are still working on getting a full handle 
on the total devastation. But FEMA has calculated $180 million 
in public assistance. They also, along with the Small Business 
Administration, have provided $3.86 million in assistance to 
the State for individual assistance.
    And the cost isn't just limited to brick and mortar. So 
far, USDA's Risk Management Agency has paid out $13 million in 
insurance for flooding in Nebraska this year. Farm land from 
Boyd and Knox Counties in the north to Nemaha and Richardson 
Counties in the southeast has been submerged for many months. 
Not only did it cost producers in crops they planted this year, 
but damage to the land could potentially keep them from 
planting those fields for years to come and perhaps never.
    You can rebuild structures, but thousands of acres of land 
now silted, silted, silted and destroyed crop land, may never 
return to productivity. So to that end, I appreciate the 
Committee inviting Brian Dunnigan, Director of the Nebraska 
Department of Natural Resources, to discuss the unique 
challenges facing our State.
    Given the immense long-term and costly damage this flood 
has caused, it is necessary for Congress to get answers as to 
what went wrong and what steps must we take to avoid such 
destruction. I will have the opportunity to visit with 
Brigadier General McMahon later this week. But I hope the 
Committee takes the opportunity to ask the Corps important 
question as, what has been learned from this tragedy, and what 
steps will it take to better respond to such record 
proportions.
    I am deeply concerned with the Corps' 2011-2012 operating 
plan, and the Corps' unwillingness to adjust the amount of 
water the reserves can hold, in response to last year's runoff. 
Doing the same thing this year and hoping for a different 
result is not acceptable. If more capacity would have cost less 
than the remediation, then perhaps we ought to be talking about 
what adjustments we make to the structures themselves.
    I also hope the Committee learns more about the Corps' 
post-assessment process currently underway. I am aware of your 
internal review and the multidisciplinary team of experts. But 
I hope the Committee and the staff will explore this process 
and this time line.
    Finally, I would like to stress the need for expediting the 
work that is already underway along the Missouri River levees. 
I thank the Chair and Ranking Member for your commitment to 
listen to local individuals about what is required in each 
State. It is crucial that the Corps gives us a complete 
assessment of the damages, the estimated costs and the time 
line for repairs to be completed.
    I don't want to start a whole discussion again about 
climate change. But what we need to consider is that there are 
patterns of weather that is changing that we need to be 
prepared for those changes in the future, not expecting just to 
wait for another thousand years for another epic flood.
    Thank you, Madam Chair. Thank you, Senator INhofe.
    Senator Boxer. Thank you, Senator, very much.
    Now we are going to call up our second panel of colleagues: 
Senator John Thune, Senator Roy Blunt, Senator John Hoeven and 
Congressman Russ Carnahan. We welcome you.
    Senators and Congressman, welcome to you all. We know you 
have busy days, we understand that. So as soon as you are 
complete, feel free to go to your next obligation.
    We will start with Senator John Thune. We welcome you. 
Senator Thune.

             OPENING STATEMENT OF HON. JOHN THUNE, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Madam Chair and Senator Inhofe, 
for holding this important hearing. I appreciate the 
examination you are giving to this important issue that has 
impacted so many people in my State and across the Country.
    Unlike a normal disaster, such as a Hurricane Irene that 
occurs in a relatively brief amount of time as waters rise and 
then recede, and victims are able to recover and move on with 
their lives, the flooding in South Dakota lasted over 90 days, 
which displaced individuals and families from their homes and 
had tremendous economic impact on businesses and communities 
along the Missouri River.
    The flood started on Memorial Day and lasted until Labor 
Day. Many of those who had their homes damaged or destroyed 
never purchased flood insurance because they were told by the 
Army Corps of Engineers that their homes were not at risk.
    I would categorize the Missouri River flood of 2011 as 
something of a hybrid, between a natural disaster and a man-
made disaster. I believe that human error contributed to the 
creation of this particular disaster.
    We need to understand what human errors and existing 
management practices on the Missouri River occurred, so that we 
can learn from these mistakes and make adjustments where 
necessary to ensure that similar disaster do not occur in the 
future.
    March 1st is a significant date for the Missouri River dam 
system. That is when the system needs to have a required amount 
of storage or empty space to be able to accumulate the average 
runoff from the winter snow pack. However, the Corps still had 
not created all the required amount of empty space in the 
system on March 1.
    Then throughout the month of March, the empty space that 
had been created filled up with runoff that exceeded 
expectations. By March 31st, the storage space was erased. The 
Oahe reservoir above Pierre and Fort Pierre was nearly seven 
feet higher than expected at the end of March. Despite the 
rapid increase in inflow during the month of March, the Corps 
inexplicably did not accommodate for the additional water by 
increasing discharges.
    In April, each of the reservoirs were well above expected 
elevations, but the Corps did not respond with adequate 
discharges to compensate for the incredible inflow during 
February and March. This allowed the system to be near maximum 
capacity on May 1 and unable to store the May runoff.
    The main thing I want this Committee to take away from the 
testimony is that the Corps completely failed when it came to 
understanding the amount of risk the snow packs contained which 
resulted in a cascading series of events that led to a much 
more serious flood than would otherwise have occurred. A 
fundamental question, I think, that the members of this 
Committee need to ask the Corps today is, why didn't they 
release more water along the Missouri River dam system in 
March, April and early May when they knew they were losing 
storage capacity, and that snow pack and inflows were well 
above normal capacity?
    Corps leadership frequently responds to this type of 
question by saying that they would have needed perfect 
foresight to predict the massive amount of rain in Montana 
during the month of May. But a lot of experts, and even 
informed observers, saw early on that severe flooding was 
likely coming in the spring and summer. Everybody saw it was 
coming and urged action to address the coming deluge, it seems, 
except for the Army Corps of Engineers, the entity charged with 
managing the river.
    It is true that some degree of flooding was going to happen 
in South Dakota this summer, regardless of what the Corps did 
or didn't do. But the Corps basically thought that they could 
fill up the entire amount of empty space in the system by the 
beginning of May, gambling that the snow pack was gone and 
there would be no significant precipitation in May. Because the 
Corps completely miscalculated on the snow pack issue, they 
never fully communicated what preparation and to what level was 
going to be needed until it was too late.
    So I would say, Madam Chair and Senator Inhofe, other 
members of the Committee, going forward, flood control needs to 
be the top priority for the Corps, particularly in wet cycles. 
This is something I believe needs to be modified or reflected 
in the master manual which governs the management of the 
Missouri River. I fear that the Corps is planning to move 
forward under the assumption that this was a one-off event. My 
understanding is that they are planning to have the same amount 
of storage space in the system next year as they did this year.
    I think that is a risky proposition, as we seem to be in a 
wet cycle. I hope the Corps will not simply repeat the mistakes 
next year or in future years that occurred this year. Keep in 
mind, the reservoir system along the Missouri River is not as 
capable for the 2012 runoff season as it was this year as a 
result of the stress that the system witnessed.
    I have said throughout this entire debacle this past summer 
that the Corps of Engineers needs to be held to account for 
their management of the Missouri River system this year. I hope 
that this hearing makes an accountability moment for the Corps. 
I have my own statement I would like to submit entirely for the 
record. I also would like to build on the record by submitting 
written statements that were provided by the mayor of Pierre, 
Laurie Gill, South Dakota Insurance Director Merle Scheiber, 
whose home was impacted by this, and by the Manager of Dakota 
Dunes Community Improvement District, Jeff Dooley, and would 
ask that those statements also appear in the record.
    I would make one final observation, too. I also want to 
include a statement by Brad Lawrence, who is the Public Works 
Director for the city of Fort Pierre, who on February 1 
predicted a flood of biblical proportions based upon the 
research that he had done at that time. His statement, his 
narrative I think is very compelling. And when you look at the 
arguments, the statements that he was already making at that 
early point in the process, it is hard to feature why we ended 
up where we were.
    Madam Chair, I thank you for the opportunity to testify 
before your Committee this morning.
    [The prepared statement of Senator Thune, Laurie Gill, 
Merle Scheiber, Jeff Dooley and Brad Lawrence follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Senator, thank you very much.
    Senator Blunt.

             OPENING STATEMENT OF HON. ROY BLUNT, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Blunt. Thank you, Senator Boxer. And thanks to you 
and Senator Inhofe for holding this hearing.
    Yesterday, October the 16th, the Corps announced that the 
Missouri River flood was officially over. Now, we have had lots 
of flooding in our State over the years, and usually it is a 
few days or a few weeks in April or May. October the 16th, the 
Corps announced that the flood was officially over.
    This was a flood that started in Senator Baucus' State over 
5 months ago. Five months of flooding. In Missouri, we had 
significant amounts of the State that were underwater for three 
and 4 months. And while no disaster response is perfect, it is 
certainly important to learn from the past. I think as Senator 
Thune has just mentioned, failing to account for disaster 
events or mistakes and dismissing disasters as unlikely to 
occur again simply isn't good enough.
    Over the past year, Missouri and the entire Country have 
faced a number of natural disasters that claimed many lives and 
devastated the livelihoods of people in our communities. As we 
work to rebuild, there is a lot to be done. Colonel Anthony 
Hoffman, the Kansas City Corps Commander, said again yesterday 
as he was calling an official in to the flood, that the Corps 
has $27.7 million set aside for repairs. At a hearing last 
week, Senator Landrieu called, the Corps said they needed $1 
billion to bring the river management system back to where it 
was at the beginning of this year.
    So we have $27 million set aside. We need $1 billion, not 
to get the system better than it was in January but just to get 
the system back to where it was in January. And of course, as 
we look at that, we see counties like Holt County, Missouri, 
where 165,000 acres was underwater for most of the summer. 
Birds Point, water went in when that floodway was open and went 
back out, it was 130,000 acres, not nearly as impacted as the 
165,000 in Holt County.
    I was there recently, they were able to get, miraculously, 
a crop in even though there was lots of early crop loss. But 
overall, we had over 400,000 acres underwater at some time this 
year. That is about half the size of the entire State of Rhode 
Island. And a lot of that 400,000 acres was underwater for 
three and 4 months. We haven't ever seen anything like that 
before.
    As one county commissioner I think well said about the 
impact of these floods, which took out interState highways, 
county roads, State roads, at one time five bridges over the 
Missouri River, where Missouri is on e side of the bridge, were 
closed. And as the county commissioner talked about all the 
jobs impacted, he just simply said, the factory doesn't get 
back to work until the roads are rebuilt. The roads aren't 
rebuilt until the flood protection is restored. And the flood 
protection is not restored until Congress provides the funding.
    So thanks for holding this hearing. I have a statement for 
the record, and I will submit it.
    [The prepared statement of Senator Blunt follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you for that cycle of virtue that you 
laid out here, because that is key. We are key to the whole 
thing here. So thank you very much.
    Senator Hoeven.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
          U.S. SENATOR FROM THE STATE OF NORTH DAKOTA

    Senator Hoeven. Thank you, Madam Chairman, for the 
opportunity to testify this morning. Also to Ranking Member 
Inhofe, appreciate it very much.
    We had record flooding in North Dakota, record flooding in 
our State this year. We had it on the Red River, on the 
Cheyenne River, on the James River, on the Missouri River and 
on the Souris River. In Minot, for example, which is on the 
Souris River, and again, managed by the Corps, we had 4,00 
homes that were either completely destroyed or partially 
destroyed. According to FEMA, it is now one of their largest 
housing efforts, just in the community of Minot, to get people 
into housing before winter comes. I think they said it is 
something like their third largest housing effort after Katrina 
and Ike. That is just one example. That is what we are facing.
    In the case of Minot, clearly we are working with the Corps 
now, and the other agencies, to not only rebuild the defenses, 
but we need to see specifically from the Corps what their plan 
is going to be. We are working with Colonel Price, who is the 
Commander of the St. Paul District, on a flood protection plan 
for next year to make sure that we don't have a repeat in that 
community of the kind of flooding we had this year, if we 
continue to have the kind of wet conditions that we are having 
right now.
    In Bismarck-Mandan, same thing. As Senator Thune just 
mentioned, as Senator Conrad mentioned earlier and as others 
have already commented on, we are in a wet cycle. Now, how the 
Corps manages the river, in this case the Missouri River, in a 
wet cycle has got to be different than how they manage the 
river in a drought cycle. What it appears they are doing is 
they are going back to an average year every year, saying, OK, 
every year is average, and we go from there.
    But that is not the case. When we were in the drought 
cycle, at which time I was Governor in North Dakota, every year 
they would say, well, this is going to be an average year, and 
they would let out the same amount of water. But we were in a 
drought. They needed to conserve water. They weren't conserving 
enough water.
    Now we are in a wet cycle. For the last 5 years, it has 
gotten wetter each year in our part of the Country. But they go 
back to an average year. We are in a wet cycle, they need to 
let more water out, they need to adjust based on the conditions 
on the ground. That needs to be reflected in the master manual 
when we talk about flood protection.
    Specifically this year, the North Dakota State Water 
Commission is recommending that Lake Sakakawea, the largest 
reservoir we have on the lake be brought down another two and a 
half feet. I am submitting my written testimony and I have 
specific questions in that testimony. But we are asking the 
Corps to reduce the reservoir another two and a half feet to 
create more storage capacity. That can be done now without 
downstream impacts.
    Who makes that decision, when do they make it? We need this 
type of accountability. And if they don't let out that 
additional water now, we need to have them show us specifically 
how they will provide protection next spring with the kind of 
precipitation we are having now throughout the river basin.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Hoeven follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Senator, thank you very much for your 
testimony. It was very compelling.
    On this panel, our last speaker, and we are so delighted to 
see Congressman Carnahan here.
    As soon as he finishes, I am going to ask Senator Baucus to 
make his opening statement and then we are going to have Hon. 
Jo Ellen Darcy, Assistant Secretary of the Army for Civil 
Works, come up with her Generals. We look forward to that.
    Congressman, please proceed.

STATEMENT OF HON. RUSS CARNAHAN, A REPRESENTATIVE IN THE UNITED 
           STATES CONGRESS FROM THE STATE OF MISSOURI

    Mr. Carnahan. Thank you, Chairwoman Boxer, Ranking Member 
Inhofe. It is really an honor to be here with your colleagues 
on this critical issue, important to the folks that we 
represent in Missouri.
    I especially appreciate your remarks about this being 
bipartisan, and I am certainly glad to be here with my Senator, 
Senator Blunt, this morning, to really show the bipartisan 
support for this work in Missouri.
    We are very familiar with the majesty and the might of our 
great rivers in Missouri. But the Mississippi and Missouri 
River floods in April and May of this year were among the 
largest and most damaging on record. During just the last half 
of May, the upper Missouri River Basin received nearly a year's 
worth of rainfall.
    On May 3d, the Army Corps of Engineers made the 
extraordinary and excruciating decision to blow up a section of 
the Bird's Point Levee in southeast Missouri, submerging about 
130,000 acres of farmland to ease flood threats to Kentucky and 
Illinois river towns. The physical damages to levees and river 
control structures from these floods is estimated to be at $2 
million thus far, not counting the millions of dollars to lost 
crops, homes and lives.
    Many of the agricultural fields are still in the process of 
drying out. The people of Missouri are still in the process of 
rebuilding their lives, and still, they need the help of local, 
State and Federal resources. Unfortunately, our House 
Transportation and Infrastructure Committee has yet to hold a 
hearing like this. We have, although, organized a briefing for 
our colleagues in the House back in July to review the status 
of these issues.
    We heard from many experts at the briefing we had there. 
But perhaps the most illuminating was the experience of Richard 
Oswald from Atchison County, Missouri. His home, built by his 
parents, was flooded for a third time in his life because of 
the failure of the levee and reservoir system. Mr. Oswald could 
not return to his home for months. His crop was ruined, the 
economy of his 1,200 person town devastated. His story was 
repeated countless times across the State.
    In southern Jefferson County, construction projects have 
been delayed, commerce altered, property damaged, marinas and 
river fronts ruined and well and sewage systems compromised. 
These floods are some of the largest hydrologic events since 
the great flood of 1927. We should take the opportunity to 
learn from it and rethink our priorities along the river and 
how we manage our reservoirs and our levees. We need to reach 
out to our local officials and members affected in their 
communities to help in predicting when and where the flooding 
will occur, providing relief support and where possible, 
helping with preventive measures. We need to take this 
information and revisit the Missouri River master manual and 
see if it needs revision based on these lessons learned.
    In my extended remarks, I have detailed the framework for 
that review. We also need to address the issue of funding. The 
lack of funding has stressed the Army Corps' capacity to meet 
our Nation's water resources needs. We must ask the tough 
questions so we can learn from these events. How will the 
Country and Corps pay for the repairs? How will we prioritize 
where we repair infrastructure for pre-flood conditions? And 
where do we have to rethink our infrastructure and change how 
we manage our river conditions.
    I believe the Congress must find a way to ensure these 
repairs are done properly, expeditiously and not at the expense 
of other projects. I look forward to working with you on these 
issues in the months ahead to ensure that both sides of 
Congress learn from and better prepare for the future on these 
events.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Carnahan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Senator Boxer. Thank you, Congressman.
    Senator Baucus, we are delighted that you could be here. We 
know heavy is the head that wears the crown of the Super 
Committee and the Finance Committee and the Subcommittee here. 
So we welcome you. Thank you for being here.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you very much, Chairman Boxer, for 
holding this hearing.
    I would also like to welcome Buzz Mattelin from 
northeastern Montana. Buzz is going to be on the second panel. 
He is exactly the kind of person that we need, he has been 
around for a good number of years, several generations, lots of 
common sense and experience, a lot of rises and ebbs and flows 
of the rivers in Montana.
    Let me just say a couple of things about this subject. I 
will open by saying, Madam Chairman and others, I have for 
years, years, worked very hard, tried very hard to convince the 
Army Corps of Engineers that they should change their master 
manual in the other direction. Army Corps of Engineers studies 
show, and have shown for a long time, that the economic value 
of the upstream States, Montana especially, is about ten times 
the economic value of the river downstream. Downstream is barge 
traffic. Downstream States, especially the State of Missouri, 
pushed, pushed, pushed, to keep more water, get more water out 
of the Fort Peck Reservoir and upstream reservoirs for the 
barge industry downstream. You have no idea how hard they 
pushed, and you have no idea how hard it was for us in upstream 
States to save, save some of the water in the Missouri River, 
Fort Peck Reservoir and other upstream reservoirs.
    I have a photograph that shows a dock on Fort Peck 
Reservoir is a mile from shore, because there is no water. 
There is no water. It has hurt irrigation because there is no 
water. I almost gave up the ghost, just gave up. I have been 
trying for 20 years, 30 years, along with other Senators in 
North Dakota and South Dakota, Senator Conrad especially and 
Senator Dorgan, to try to get the Corps of Engineers to not 
force us upstream to let so much water out. That has been going 
on for years.
    Now, we have a flood. It is terrible. There is a flood 
downstream, it is terrible. But my main point here is, let's be 
careful. The Army Corps of Engineers studies all this stuff and 
tries to figure out what the proper balance should be and how 
much water should be kept and how much water not kept and so 
forth. I find it a little strange that suddenly, I know the 
reason because the floods are devastating, it is terrible, but 
now they come at exactly the opposite message, earlier they 
want water, want water, want water. This year, no water, no 
water, no water.
    I mean, it is just the opposite. They don't tell you that. 
They don't tell you what the last 3 year history has been as 
they asked for more and more and more water.
    And frankly, this is a difficult subject. To the degree one 
believes in climate change, and I do, scientists will say that 
with increased climate change in this world, there is greater 
volatility in weather and the cycles are shorter. I remember 
Dr. Hanson 20 years ago predicted that in a hearing over in the 
Interior Committee. It was very, very compelling testimony he 
gave. That I think is what is happening now. You have years, 
sometimes you get wet years, sometimes you get dry years. Look 
at Texas, it is in drought, and Oklahoma in drought. Eastern 
Montana, drought. It is just very spotty, it changes.
    I believe there is going to be increased volatility in 
weather cycles. I think that the compression is going to be 
shorter, and we are going to have years where it rains a lot, 
and where there is a lot of snow pack. But we can't willy nilly 
just turn off the dams and turn them on, just to try to control 
it. A lot of these floods are not in the Missouri River, a lot 
of these floods that we have mentioned today. The Souris River, 
for example, in Minot, has devastated Minot, North Dakota. It 
has nothing to do with Missouri.
    But there are Missouri floods, no doubt. One might say, 
Madam Chairman, I have one book on my bed stand I want to read, 
never read it, it is the 1927 flood. I am told it is a great 
book and I want to read that book. But it just gives one a 
sense, too, what the floods were back in that era.
    Now, the Corps of Engineers has told my office, I don't 
know if this is in print, they told my office that a recurrence 
of a flood of this magnitude is about .2 percent. This is a 500 
year flood. Now, we haven't kept records for 500 years, so it 
is kind of hard to predict whether it is a 500 year flood or 
not. But they have told us privately, maybe it is in print, I 
don't know, that it has .2 percent chance of recurrence.
    So I hear it said here, clearly, the Corps should manage 
the dams. It is in the Corps' jurisdiction appropriately and 
fairly and so on and so forth. But in the master manual, 
recreation has been listed as a priority, as has environmental 
protection and so on and so forth. Then just suddenly, somebody 
is, oh, no, have to change the master manual today, I think 
would probably in the long period of history, result in Fort 
Peck Lake being back down to this low, low, low levels again 
because the water is out again.
    You have to look at fisheries, you have to look at the 
Endangered Species Act. There are so many factors here. I just 
urge the Corps to be very careful and not react to the exigency 
of the moment, when actually this stuff changes.
    Senator Boxer. Senator, thank you. That was sobering 
testimony and reality. I thought you summed it up really well, 
and thank you for being here.
    Senator Boozman, would you like to make an opening 
statement before we call the Assistant Secretary?
    Senator Boozman. If it is appropriate. I promise I will be 
brief.
    Senator Boxer. It surely is.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Madam Chairman. I do appreciate 
your holding the hearing today.
    Throughout our history, the mighty Mississippi and her 
tributaries have brought commerce and opportunity to Arkansas. 
But sometimes the river brings great challenges to our delta as 
well. This year's flood provided a great test.
    Let me start by thanking the many people in Arkansas and 
throughout the Mississippi River Valley who worked night and 
day to fight the flood. These included private individuals as 
well as State, local and Federal officials, personnel from 
throughout the Corps, including from the Little Rock, Memphis 
and Vicksburg districts, showed tremendous dedication and 
professionalism under very challenging circumstances.
    The conditions that led to this year's events were very 
similar to the major Mississippi floods of the 20th century, 
including the great flood of 1927. Our Country should be very 
proud that the investment made over the decades led to a far 
different outcome. While there was a great suffering this year, 
we should be proud of the progress that has been made.
    For decades, we have been building, operating and 
maintaining the Mississippi River and Tributaries project. This 
project is made up of levees, floodways, channel improvements 
and stabilization of other structures, such as dams. This year 
alone, the MR&T project helped to protect more than 10 million 
acres and nearly 1 million structures, while preventing more 
than $110 billion in damages.
    Over the decades, our Country has invested approximately 
$13.9 billion and yet the project has directly prevented $350 
billion in flood damages. In total the return on investment is 
a tremendous 34 to 1.
    I recognize that today's hearing is broad and that we will 
hear from witnesses impacted by the floods as well as witnesses 
from the Mississippi River Valley. I see this as an opportunity 
to learn what went right and what went wrong and how to improve 
our system and our plans for the next time.
    With that I yield back. Thank you, Madam Chair.
    Senator Boxer. Thank you so much, Senator.
    We are going to call our next panel up. The Assistant 
Secretary of the Army for Civil Works, Jo Ellen Darcy, 
accompanied by Major General Walsh, Brigadier General McMahon, 
Colonel Larsen. While you are getting seated, Senator Inhofe 
has asked to respond to some comments of Senator Baucus, and I 
have urged Senator Baucus to stay here just in case we want to 
have a little back and forth on this before we turn to Jo Ellen 
Darcy.
    Senator Inhofe. Thank you, Madam Chairman.
    I know it is difficult for people to resist the temptation 
to try to draw events in the weather that are taking place, 
maybe in this year or this week, to the global warming 
argument. So what I have is three short statements, a sentence 
on each one, from three alarmists that you know very well and 
have been on your side of this issue, Madam Chairman.
    Senator Boxer. Alarmists from your side or my side?
    Senator Inhofe. Your side.
    Senator Boxer. My alarmists.
    Senator Inhofe. Judith Curry, the Chair of Georgia 
Institute of Technology's School of Earth and Atmospheric 
Sciences, keep in mind, an alarmist, said ``I have been 
completely unconvinced by any of the arguments that I have seen 
that attributes a single extreme weather event, a cluster of 
extreme weather events or statistics of extreme weather events, 
to anthropogenic forcing.'
    Second is Myles Allen, head of the Climate and Dynamics 
Group, the University of Oxford. That was the one that got a 
lot of publicity back during the Climate Gate. He said ``When 
Al Gore said last week that scientists now have clear proof 
that climate change is directly responsible for the extreme in 
devastating floods, storms and droughts that displaced millions 
of people this year, my heart sank.'
    And last, Roger Pielke, Jr., Professor of Environmental 
Studies, University of Colorado, said ``To suggest that 
particular extreme weather events are evidence of climate 
change is not just wrong, but wrong-headed.' Now, he goes on, 
and I would ask unanimous consent to submit the rest of his 
statement, because it emphasizes that.
    Senator Boxer. Sure.
    [The referenced information was not received at time of 
print.]
    Senator Inhofe. Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Well, I am going to respond in this way. We have worked 
closely together on infrastructure, and we don't' work closely 
together on climate change. So for the record, let me say, I 
don't know anyone who is blaming what happened on climate 
change. I do know this, that that is exactly what the climate 
scientists warned us about. We do have eyes. We do see what we 
see.
    So here is the thing. Of course we don't know whether this 
is climate change. It takes a decade. It is not about the 
weather. It is not about day to day. One day we are going to 
see it very warm in the winter, I assure you, and 1 day we are 
going to see it very cold.
    The last time it was cold, it was cold somewhere here, I 
remember, I think you built an igloo outside and invited Al 
Gore to come there. In the meantime, we were supposed to have 
the Olympics, the Winter Olympics. It was so hot up there, that 
they had to import snow.
    The bottom line is, we don't know now. We will only know 
looking back on the decade. So I do agree with what they are 
saying and I do agree with what you are saying. Because I don't 
think that on our side, we are alarmists. I think what we are 
saying is, keep an eye on this. This is what it looks like is 
happening. But you can't really tell until you get a decade 
out.
    I hope that this, we are not going to ask any of our 
panelists to respond to the issue of climate change. This was 
my colleague giving his opinion, which I value greatly. Because 
Max Baucus doesn't say things without a lot of thought.
    But so be it. We are divided on the panel. We have to 
accept that.
    Senator Inhofe. I would also comment that two of Al Gore's 
speeches in New York were canceled because of snow storms up 
there, too. I think we are pretty much in agreement on that.
    Senator Boxer. Yes. Extreme weather is what was predicted.
    We will now turn to our non-controversial panel. We are 
very happy to see Jo Ellen Darcy here, we have known so long 
and well. She worked for Senator Baucus for a long time. Now 
she is the Assistant Secretary of the Army for Civil Works. And 
she has an excellent team with her. Would you proceed?

 STATEMENT OF HON. JO ELLEN DARCY, ASSISTANT SECRETARY OF THE 
ARMY, CIVIL WORKS; ACCOMPANIED BY: MAJOR GENERAL MICHAEL WALSH, 
COMMANDER, MISSISSIPPI VALLEY DIVISION, BRIGADIER GENERAL JOHN 
  McMAHON, COMMANDER, NORTHWEST DIVISION, COLONEL CHRISTOPHER 
       LARSEN, ACTING COMMANDER, NORTH ATLANTIC DIVISION

    Ms. Darcy. Thank you, Senator Boxer.
    Senator Boxer, Senator Inhofe, Senator Baucus, members of 
the Committee, I am pleased to be here today to testify on the 
2011 flood events and to discuss the condition of the Nation's 
flood control systems.
    I am joined today by Major General Mike Walsh, who is the 
Commander of our Mississippi Valley Division and also the 
President of the Mississippi River Commission; Brigadier 
General John McMahon, who is the Commander of the Northwest 
Division; and Colonel Christopher Larsen, who is the Acting 
Commander for the North Atlantic Division.
    Two thousand and 11 has been extremely challenging for the 
Nation in terms of natural disasters across multi-State areas. 
My testimony today will cover three events in which the Corps 
was greatly involved: the flooding on the Mississippi River, 
the flooding on the Missouri River and the flooding caused by 
Hurricane Irene and Tropical Storm Lee. These are not the only 
events in which the Corps responded and assisted. Others 
include tornadoes in Alabama and Missouri and flooding on the 
Souris River.
    This year the Corps supplemented State, local and tribal 
efforts with over 37 million sandbags, 342 pumps, 5,500 rolls 
of poly sheeting, 275 linear feet of HESCO barriers and 1,280 
linear feet of rapid deployment flood wall, and issued 176 
emergency contracts to protect critical infrastructure from 
flood threats.
    During the 1927 flood, the Mississippi River Valley region 
had a haphazard system of public and private levees, trying to 
confine the river within a levee system. The result was 72 
percent of the lower valley was underwater. More than 26,000 
square miles were flooded, 500 people were dead, and another 
700,000 were left homeless.
    After the 1927 flood, the Nation authorized and funded the 
Mississippi River and Tributary System that includes levees, 
supplemented by reservoirs, floodways, backwater areas and 
channel improvements. During this year's 2011 flood event, 
flood flows were greater than those experienced during the 1927 
flood. But because of the MR&T project, only 38 percent of the 
area that flooded in 1927 flooded in 2011. Not a single life 
was lost in this historic flood event.
    The Bird's Point New Madrid Floodway was operated on May 
2d, 2011, and opening the two additional floodways was 
synchronized to manage the flows in the Mississippi River 
Basin, preventing flooding of over 9.9 million acres and 
preventing damages in excess of $60 billion. For the first 
time, three of the system's floodways were placed in 
simultaneous operation to help relieve the enormous stress on 
the levee system and to reduce the danger to people, their 
homes and businesses. Over 800 personnel were engaged with more 
than $76 million of funds allocated and over $59 million in 
FEMA money for missions that they assigned to the Corps under 
the Stafford Act.
    The watershed approached was used to keep the system 
intact, and a watershed approach will be needed to repair and 
restore it as well. The Corps invited seven States and ten 
Federal agencies to help set priorities and plan a 
comprehensive approach to restoring the flood protection 
system. All of us share responsibility in the recovery efforts. 
By pooling our resource, our talents and our expertise, we will 
focus on key elements that protect the lives and the 
livelihoods of million of Americans.
    The flooding along the Missouri River this year 
approximately doubled the historic record for waterflows. The 
combined May through July runoff of 34.3 million acre feet made 
2011 an historic year of record for reservoir water storage 
along the Missouri River. Flood response efforts engaged over 
400 personnel and cost $83 million.
    Actions by the Omaha and the Kansas City Districts during 
the Missouri River flooding this summer were extremely 
effective in reducing flood damages. The Corps fortified 
levees, built temporary levees, monitored dam and levee safety 
and other activities such as providing flood fight supplies to 
State emergency offices. For example, in South Dakota, the 
Corps constructed approximately four miles of temporary levees 
at Pierre and Fort Pierre and approximately 1.5 miles of 
temporary levees in the community of Dakota Dunes.
    Now that the river has receded, the Northwest Division is 
initiating post-flood actions including inspecting, assessing 
and repairing damaged levees and dams, assessing the operation 
of the Missouri River dams and reservoirs during the flood, 
including an independent external review now underway in 
completing technical review of the flood fight response.
    In late August and early September, extreme weather 
conditions continued, this time centered in the northeastern 
section of the Nation. Hurricane Irene traveled along the 
Atlantic Coast, impacting the entire area from coastal North 
Carolina to Maine. Just a week later, the remnants of Tropical 
Storm Lee tracked up from the Gulf and severely flooded 
northeastern Pennsylvania and the lower southern tier of New 
York State.
    Although flood damages in the area were devastating, in 
many areas where Corps projects exist, their operation by the 
Corps effectively reduced an additional estimated $6 billion of 
damage to the residents of the northeast. The Corps continues 
to assess the extent of the damages to civil works projects and 
non-Federal projects that are eligible for assistance under 
what is called our Public Law 84-99 program.
    The Corps first used $46.6 million of our available funds 
within our flood control and coastal emergencies account for 
immediate flood-fighting and response to the spring flooding. 
As the flood events continued, the Corps was unable to respond 
to the requirements from our available flood control funds.
    Since May 2011, I have exercised my emergency authority 
provided under Public Law 84-99 to transfer funds from other 
appropriations accounts to the Flood Control and Coastal 
Emergencies Appropriations account, in order to respond to the 
flooding and to begin addressing repairs from the ongoing 
disasters. To date, I have authorized four transfers totaling 
$212 million. The last transfer of $137 million allowed the 
Corps to begin addressing a portion of the highest priority 
life and safety repair requirements.
    The Corps has set up a rigorous process of headquarters-
level for technical experts to examine the requirements and to 
prioritize those requirements based on risks to life and 
safety, among other parameters, in order to make the best use 
of available funds. I expect to have to authorize additional 
transfers of funds from other Corps accounts to the Flood 
Control and Coastal Emergency account in order to address the 
ongoing emergency needs.
    In conclusion, the Corps stands ready to respond to and 
assist in any recovery effort disaster as they occur.
    Thank you.
    [The prepared statement of Ms. Darcy follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    
    Senator Boxer. Thank you very much.
    Just so everyone knows, I will take my 5 minutes. Then I am 
going to hand the gavel over to Senator Cardin, who is going to 
conclude this hearing. Senator Inhofe will speak after I do. We 
will go back and forth in order of arrival.
    So Secretary Darcy, the Corps is now facing the daunting 
task of evaluating the condition of infrastructure after these 
dramatic 2011 flood events. Does the Corps have adequate 
authority to undertake all of the work it believes will need to 
be done, or will added authority be needed through a WRDA bill 
to facilitate some of the post-event work that will be needed?
    Ms. Darcy. At this time, Senator, I don't believe we need 
additional authority. We are challenged by funding.
    Senator Boxer. All right. So would you let us know, after 
you discuss this with your Generals and your Colonel, if we do 
in fact have to change any of the laws through the WRDA 
process? And obviously the problem of funding is there.
    Our hearing today focuses on three historic flood events in 
2011. Each of these events was unique, and the Federal response 
to each event was different. I have spoken to people in the 
Corps and I will tell you, some of those challenges were 
extraordinary, and some of the responses were very, very, very 
tough, particularly Major General Walsh, we watched what you 
had to do. It was really tough to tell people who had had these 
farms for a long time, you are just going to have to work with 
us here, because we need some place for this water to go. I 
know how hard that was on you and your team. I am sure others 
were facing very similar conflicts.
    So it is so important that we learn from the successes and 
the failures. So I would say, Ms. Darcy, in your analysis, what 
are the most important lessons that we have learned from the 
2011 floods?
    Ms. Darcy. I think one of the most important lessons we 
learned was the coordination and communication that we had, not 
only within the Federal agencies, but with the local 
governments. We also had a joint command center, one for the 
Mississippi floods and one for the Missouri floods, that we had 
daily updates not only from NOAA and the Weather Service but 
also the local communities as far as what we could expect that 
day. I think the communication was great.
    And also, General Walsh and General McMahon have now, as a 
result of the floods, set up task forces for response as to how 
we will work with our stakeholders to determine what we can do 
to repair what damage has been done.
    Senator Boxer. Did anything go wrong that you want to work 
on?
    Ms. Darcy. I don't want to every say we didn't do anything 
wrong, but I think what we did do was operate the system as it 
was designed to work. And by going with the design of the MR&T 
system, as well as operating the Missouri River as designed, 
with our flood control dams, that they did work as designed.
    Senator Boxer. I am going to leave it to others to ask 
about the manual. Thank you all so much for your heroic 
efforts. Obviously, we have to, I hope, find the Resources. 
Because just like the roads, we can't have a strong economy if 
people are stuck, without homes, without businesses. It is a 
nightmare. So we have to work on this.
    Senator Inhofe.
    Senator Inhofe. Thank you. I will do the same thing as the 
Chairman and I have had a chance to visit with Secretary Darcy.
    Let me first of all compliment you and thank you for the 
time that you spent helping us out of a situation, and I do 
appreciate it very much.
    The rest of you, you heard the question the Chairman asked, 
what lessons were learned. Do the other three of you want to 
make any comments in terms of lessons learned as a result of 
this?
    General Walsh. Yes, Senator. As the President of the 
Mississippi River Commission, I think one fo the key items that 
we learned is systems thinking works, systems investment works 
and systems leadership works. As Senator Boozman had mentioned, 
the Mississippi River Tributaries project, the Nation has 
invested $13.9 billion putting that system together. And while 
it was only 89 percent complete, the system did work. As you 
heard, in 1927, 500 people were killed. And in this flood, 
which was much larger, there were zero fatalities.
    So I think systems thinking, systems investment, and 
systems leadership was very key in fighting the flood on the 
Mississippi River. I do have a statement from the Mississippi 
River Commission.
    Senator Inhofe. OK, the other two pretty much agree with 
what he said there.
    I was asked to ask some questions, actually there are 
seven, there won't be time for that. I will ask two of the 
seven that were requested by Senator Thune. First of all, why 
didn't the Corps release more water in March, April and early 
May, when they knew they were losing storage capacity and the 
snow pack and inflows were well above normal?
    General McMahon. Senator, thank you for the question.
    We watched the snow pack accumulate very closely. As we did 
that, the snow pack in the Plains was melting. That is a 
restriction that we have to contend with on the Missouri, 
because through the months of January through about the middle 
of April, there is ice on the river. So while the snow pack in 
the Plains is melting, the ice on the river restricts the 
amount of water we can release from the reservoirs. So that is 
a compounding fact that we have to deal with each and every 
year.
    We did watch the snow in the mountains accumulate, and we 
were increasing releases each month accordingly to accommodate 
and make the space for the growing snow pack in the mountains. 
What we did not anticipate, of course, is the rain that has 
been alluded to, that began in the middle of May. May was the 
third highest month on record for runoff in the upper basin. 
June was the first, and July was the fifth highest.
    So three consecutive months of rain just was the wild card 
that we did not anticipate, nobody could have anticipated. That 
is what caused us to increase releases, up to 160,000 cubic 
feet per second out of Gavin's Point and subsequently, the 
damage that has accrued since then. It has been a 5-month long 
event, as has been mentioned.
    But we were doing, I think, taking prudent actions on the 
basis of the information we had at the time. And I think the 
independent external panel that has been formed will look into 
all these matters, and either validate or challenge the 
decisions that we have made. I look forward to the outcome of 
that report in December, sir.
    Senator Inhofe. All right. The other six of the questions 
that would be asked by Senator Thune, Mr. Chairman, I am going 
to submit for answers in the record.
    [The referenced information follows:]
    Senator Inhofe. Thank you.
    Senator Cardin.
    [Presiding] Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    Secretary Darcy, when you last appeared here, I asked you 
if the Corps had reassessed its decision not to pay for 
certification of levees. You said you would take that under 
consideration. You would consider reassessing that decision not 
to pay.
    Can you tell me now the results of that reassessment?
    Ms. Darcy. The reassessment, the results are that we will 
continue to not to be able to pay for the assessments or the 
certifications of the levees. As everyone knows, we have 
incredible budget constraints. It is just one of the mission 
areas that we will not be able to fulfill.
    Senator Baucus. Do you have a sense of the hardship that 
causes these communities, Miles City, Glendive, Great Falls? 
Many communities that have to have floodplain maps, and to get 
the maps they have to have the levees certified. Earlier, I 
think it was prior to 2008, the Corps did pay for 
certification. Then suddenly, the Corps withdrew the 
certification, leaving these communities--no pun--high and dry 
in their inability to have the Resources to make sure they get 
certification of the levees so that maps can delineate and so 
that people can know they can live in an area that has a 
certified levee.
    Ms. Darcy. Senator, what we are doing is working with FEMA 
to try to better coordinate the timing of when their maps are 
redone and when the certification for their flood insurance 
program would be required. We also are providing information 
from our inspections. We do an annual inspection and an 
inspection every 5 years of levees that are in the Corps 
program. We provide that information to the local levee board 
or the local sponsor for that levee.
    We also have developed a national levee data base. That is 
now up and running, so that anyone can plug in their zip code 
and find out where a levee is and what its condition is. So we 
are providing more information to the locals.
    Senator Baucus. I appreciate that. But I urge you to go 
back and reconsider. Because prior to 2008, the Corps did pay 
for certification. And as these levees were built, communities 
relied on them and the Corps pulled the plug. I just urge you 
to go back and try to find some accommodation, here, at the 
very least, in financing certification. It is getting 
expensive, and these small communities just can't afford it.
    Ms. Darcy. We will look at it again, Senator.
    Senator Baucus. I am serious, both of us, you can't beat 
something with nothing. So try to find some compromise, some 
something. Maybe you can draw the line somewhere that makes 
some sense, that helps out to some degree. And I will do the 
same.
    I have introduced legislation, as you know, giving the 
Corps authority and directing the Corps to pay for the 
certification. We just have to find some--we can't stonewall. 
All these levees, stonewalls and pulling the plug and so forth, 
but you know what I am getting at. We have to go back. I 
appreciate that.
    I would just like to ask a general question about these 
floods. I don't mean to be too provocative here, but it struck 
me that one of the reasons there is so much flooding, it is not 
just rainfall and snow pack. All the dams and levees that have 
been built along the Missouri and Mississippi have caused 
channeling, which has caused the river to not flow out into 
wetlands, caused the river to be faster, more violent, more 
force. And it raises many, many questions about floodplain 
insurance and where people should live and not live, and 
whether we keep wetlands or not. The wetlands in the delta, I 
am told, are very important to wildlife and fisheries and so 
forth. Then the delta gets flooded out, and I have a hunch, I 
don't know, I could be dead wrong, that some of this channeling 
reduces some of the wetlands in the Mississippi Delta as well.
    Could you or any of your experts comment on the degree to 
which channeling does exacerbate the problem here of flooding?
    Ms. Darcy. Senator, I will take a stab and then I think 
General Walsh would like to respond as well.
    We are currently looking at some of the impacts of the 
projects on wetlands. In particular, in Louisiana, we are 
looking at some possible diversion projects that could take 
some of the sand and the sediments out of the river for 
wetlands restoration. So it is, there is some impact from when 
you try to tame a river. There is going to be impacts from what 
it is you are doing, from that channelization.
    Senator Baucus. Could you comment on the master manual? It 
is a subject of huge controversy. Senators from various States 
have looked at it and talked to the Corps about it many times, 
including myself.
    Ms. Darcy. Right.
    Senator Baucus. And over many years. My sense is that we 
should be careful here, before changing the provisions of the 
master manual.
    As I listen to you, it sounds like you have considerable 
discretionary authority, the Corps does, to account for 
emergencies as we experienced this year.
    Ms. Darcy. We do, ion the Missouri River master manual, 
there is some provision for emergency. However, revisions of 
the master manual need to go through a public process. As you 
may recall, Senator, the last time we revised the Missouri 
River master manual, it took 14 years and $33 million.
    Senator Baucus. I recall that. It was very frustrating. 
Because just as the panel ahead of you wants to change the 
manual for their reasons, I back then during that period, would 
like to see the manual changed to protect upstream recreation. 
Again, the Corps had a study back then that showed that the 
economic value of the upstream recreation far outweighed the 
economic value of managing the dams and the river for barge 
traffic downstream. Far outweighed it, I guess ten-fold, 
something like that. And we have been working on this for years 
and years and years.
    I don't know, 14 years sounds like a long time to change a 
master manual. But I do agree with an implication in your 
response, namely that the master manual cannot be changed willy 
nilly. It takes time and thought to look at lots of different 
factors to decide what the proper balance should be.
    Ms. Darcy. That is correct. As I said, the public process 
needs to be involved in any changes to it. As I said earlier, 
and General McMahon alluded to the fact that this external 
panel is currently looking at how the operations were doing 
during this flood event. Whatever recommendations they have, we 
will consider.
    Senator Baucus. I appreciate that. Thank you very much.
    Senator Cardin. Senator Johanns?
    Senator Johanns. Let me just thank all of you for being 
here today.
    Let me, if I might, in my questions, focus on kind of what 
we are anticipating as we think about this winter and going 
into next spring. Correct me if I am wrong, but it seems to me 
that the conditions are, No. 1, the capacity in the system is 
about where it was a year ago. Second, it appears to me that 
throughout the whole stretch of the system, we have had some 
unusually wet weather. The third thing that occurs to me is 
that current, it is anticipated currently that the releases 
will not significantly increase. In fact, they are going to be 
held level for the foreseeable future, at least into next year.
    All of this leads me to believe, and there are probably 
some things that I am not mentioning, but all of this leads me 
to be live that we are kind of working our way right back to 
where we were a year ago, and any circumstance, heavier snow 
melt, heavy rain, will put us right back to where we were.
    Maybe General McMahon, we will start with you. Where am I 
wrong about this?
    General McMahon. Senator, thank you for the question. It is 
packed full of information, background information that is 
relevant here to understand it, as you are alluding to.
    First of all, looking at the way ahead, the system is more 
vulnerable next year now than it was last year. So we have to 
be very careful, to use Senator Baucus' words, insofar as how 
we take advantage of the time between now and when the runoff 
season begins on the first of March, 2012.
    We made a conscious decision at the end of July, and I made 
the rounds on the Hill here, and touched based with you and 
many of your colleagues on this very critical decision point, 
which was we decided we needed to evacuate the 16.3 million 
acre feet of water that has been the system design since the 
system was built, because to do more, to evacuate more water, 
would take away the time that we needed to get the water out of 
the floodplain, out of farms, out of homes, out of businesses, 
for people to get back in there and begin the repair and the 
reconstitution, if you will, as well as for the Corps, for 
Federal highways, for States, counties and cities to do the 
very same thing, to get into their infrastructure and inspect 
and begin the repair process.
    If we were to evacuate more water and create more space in 
the reservoir this year, we would not have given ourselves even 
that opportunity for the water to drain and for the inspection 
and repair process to begin. That was a very hard decision, a 
delicate decision that had to be made because of the huge 
volumes of water that needed to be evacuated, and only 
evacuated because of the release rates and the time available.
    We are now past that point. Now we have seen, finally, the 
declaration of the end of flood has occurred just yesterday, 
that was mentioned. So now, we are at the point where 
inspections are beginning in earnest, and the repairs can 
begin. All contingent on the funding. And as has been alluded, 
we have moved money inside the Corps to get that repair process 
jump started and the inspection process jump started. That is 
going well.
    But we are going to quickly come to a point in time where 
the funding is going to be the big constraint, in addition to 
the time available. But given the vulnerabilities that we have 
in the system next year, we have to get on with the repairs. 
That was the tradeoff that we made. We decided that we needed 
to evacuate back to the amount of water that we normally have.
    Now with respect to other evidence of why that is a prudent 
decision. We look at the climatological prediction center, the 
National Oceanographic and Atmospheric Administration's center 
of expertise for predicting weather, both near and long-term. 
They tell us that this next, the remainder of 2011 and 2012, 
there are equal chances of normal, above and below normal 
weather patterns. We have a La Nina effect, which for the 
Missouri River Basin means cooler temperatures but it is very 
hard to correlate precipitation, both snow pack and rain, on 
the basis of a La Nina phenomena.
    So all that evidence points to, and the fact that this is 
approximately a one in 500 year event, very low likelihood of 
occurring again. And again, it is not an improbability, but it 
is a low probability. That is the world that we are in. Nobody 
can see the future here, as you well know. So given all that 
evidence, it made sense to us to evacuate the water to 6.3 
million acre feet of space, and to take advantage of the time 
available, pending funding, to get on with the repairs and 
reduce the vulnerabilities that exist in the system, as much as 
we can between now and the first of March.
    Senator Cardin. Thank you.
    Senator Whitehouse will inquire.
    Senator Whitehouse. Thank you, Chairman Cardin.
    Ms. Darcy, you were last here in March. After you came, I 
asked questions for the record. And we never got an answer to 
them. I don't know why. It has been quite a while and they were 
quite simple questions.
    One was, how much funding is currently available for 
Section 205 projects. I assume somebody in the Corps actually 
knows that number and it is just a question of sending an email 
over to us.
    The other is whether this funding will allow for any new 
projects to be initiated, or whether it is fully subscribed. 
Again, I assume somebody actually knows that information. So I 
don't think I am asking for exhaustive research or complicated 
analysis to be done. I just need to have my questions answered.
    The third is, whether the Army Corps is planning for any 
increase in the Section 205 projected requests, and what are 
you doing to prepare for that.
    So can I have your firm pledge right now as to when I will 
get answers to those questions from April?
    Ms. Darcy. Yes, Senator.
    Senator Whitehouse. When?
    Ms. Darcy. We will have them before the week is out.
    Senator Whitehouse. Perfect. That is a big help. I 
appreciate it.
    And let me add a new one. And that is, the transfers that 
you referred to in your testimony and that Brigadier General 
McMahon just alluded to, do they affect the Section 205 
account?
    Ms. Darcy. The transfers that we are looking at, we are 
looking at all available funding. Because we have to look at 
everything nationwide across all of our business lines. But in 
the 205 program specifically, I don't know if we have taken any 
from there. But I will provide that for the record as well.
    One thing that I do know is when, I was here last March, 
but after that we had our continuing resolution and work plan 
was after that. And part of the re-instruction from the 
Congress was to take $100 million of our carryover from our 
continuing authorities program, and that was rescinded.
    Senator Whitehouse. It is interesting to me, as a Senator 
from a small New England State, to hear some of the discussion 
from my western colleagues where it is clear that the Army 
Corps has a very large footprint and controls an enormous 
amount of what goes on in terms of flooding and flood control. 
We have dams that probably predate the Army Corps of Engineers 
in Rhode Island. We are packed with little municipalities that 
are hundreds of years old. It is a complex situation, to work 
your way through all of that. Some of the dams, I don't think 
it is clear even who owns or controls them. They just are 
there, and they have been there for however long.
    So my question is, we just had flooding March a year ago in 
Rhode Island, it was pretty extreme, 500 year flood conditions 
reached in certain areas. And we don't seem to have a plan for 
how the different upstream dams can work with one another to 
perform the kind of rain collection function, particularly if 
rain is anticipated, so that we can minimize the flooding, that 
they can become cachement areas for an anticipated flood.
    What authorities do you have or do you need? You will end 
up with the mess. When the Patuxent Cove got filled with dirt 
and silt because of the flooding, you had to go in and clear it 
out, to clear the navigable waterways. So you will own this 
problem at the back end. What can you be doing with us at the 
front end to help the Providence Water Supply Board, the State 
Department of Environmental Management, the various interested 
agencies work together so that we are doing our dam release 
control in an integrated way that helps with flood control 
protection?
    Ms. Darcy. You used the word that I was going to use, the 
integrative, it is clear that these dams were built years ago 
and not in a way that is a system design. The integrative water 
Resources Management is what needs to take place in order for 
those dams not only to perform for flood control purposes, but 
also whatever impacts that will have on navigation downstream.
    So I think an integrated water management plan for that 
either stretch of river that you are referring to for those 
dams is probably what is needed. The Corps of Engineers has 
some technical expertise in that area. So I think working with 
a State or local sponsor, we could provide some technical 
assistance.
    Senator Whitehouse. We look forward to working with you. 
The clock is saying that I am more than 5 minutes over.
    Senator Cardin. The Senator is directly on time. Time has 
just expired.
    Senator Whitehouse. OK, good.
    Senator Cardin. Thank you for your cooperation.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. Thank you all 
for coming.
    General Walsh, the Mississippi River literally tried to cut 
a new channel across President's Island in Memphis. It did the 
same in Lake County, north of there. This is the type of damage 
that threatens navigation along the entire Mississippi River 
and could shut down our inland waterways if we don't repair it.
    In Memphis, the damage to President's Island, the Port of 
Memphis, which is home to a TVA power plant, the State's only 
refinery, and industries that support 3,500 jobs is extensive. 
The repair of the shoreline is expected to cost $35 million and 
that is just for the top bank. Millions more for other repairs, 
including dredging to keep McKellar Harbor open for business. 
And in Lake County, north of there, the Corps estimates $32 
million will be needed to repair the top bank to keep the 
Mississippi from trying to change course during the next flood.
    My question is, what would happen if the Mississippi River 
did cut a new channel through President's Island at Memphis? 
How would that affect navigation on the Mississippi River? And 
what is the priority that the Corps has for completing those 
repairs?
    General Walsh. Sir, thank you for the question, Senator. 
The impacts would be very significant to the Mississippi River. 
This is not the only top bank erosion that we have on the 
Mississippi. And if we lose the direction and flow of the 
Mississippi because of it, it goes into this over-bank erosion, 
it is about $60 million worth of infrastructure around the 
river that would be bypassed.
    So this is a very significant problem that we need to work 
on. It is a priority 2 item. Priority 1 items are life safety. 
And right below that is priority 2. I believe this project is 
the second one in the priority 2 efforts that we need to get 
accomplished.
    Senator Alexander. Thank you, General.
    Secretary Darcy, going back a year to the 1,000 year flood 
we had in Tennessee that affected everything from Opryland 
around Nashville to Memphis, I urged the Corps to work with the 
National Weather Service to create a warning system for floods 
that was as good as our tornado warning system.
    I know that it is harder, that predicting rising water is 
not the same as predicting the arrival of a tornado. But the 
fact is that over the last 10 years or so, the Weather Service, 
the Corps and others have taken the tornado warning system and 
really made miraculous improvements in it. People can actually 
turn on their television sets and see that within 13 and a half 
minutes a tornado is coming down their street. That is pretty 
precise.
    We had some problems in 2010, which the Corps admitted in 
dealing with adequate communication about rising water to 
businesses and individuals in Nashville, all the way down to 
Memphis. Many Tennesseans felt that had they had better 
information, they could have avoided a lot of damage.
    Now, we have gone more than a year now since I asked the 
Corps to work with the Weather Service to create a warning 
system for floods that was more like the tornado warning 
system. What has been the progress on that? What successes have 
you had with it?
    Ms. Darcy. Senator, I know that we are working on it. I 
don't know exactly what I can report to you today, but I will 
most definitely get back to you as soon as possible. I just 
don't know in enough detail.
    Senator Alexander. Well, following Senator Whitehouse's 
example, can I ask for a reasonable date when you might get 
back to me about that?
    Ms. Darcy. By the end of the week.
    Senator Alexander. Two weeks will be fine. You can do his 
first and mine next week. How would that be?
    Ms. Darcy. That is fine.
    Senator Alexander. But I am quite serious about it. It is 
building on the success that the Corps had. And then even as a 
result of those discussions that we had, when we had the next 
rising water circumstance in Nashville, there was a lot better 
communication, because the Corps and the Nashville Mayor and 
others put themselves in the same room, basically, and 
communicated with one another.
    And so I am now more interested, not just in that, but how 
do you take that same information and get it out to businesses 
and people who might be in the way of the rising water? I hope 
we can have the same kind of success with flood warnings, which 
are, as others have said, a larger part of our damage than any 
other kind of disasters. More success with that just as you did 
with the tornado warnings.
    Thank you, Mr. Chairman.
    Senator Cardin. Secretary Darcy, in response to Senator 
Boxer, you indicated the Corps doesn't need new WRDA authority 
to respond to the 2011 flood repairs. Although you don't need 
new authority for repairs, does the Corps need a WRDA 
reauthorization to deal with other emerging issues?
    Ms. Darcy. Senator, there are emerging issues all the time. 
Just some things that I think we are going to need to deal with 
in the future that are not particularly the subject of this 
hearing, are the way we finance a lot of our projects is it is 
going to have to be looked at. We currently are not, and don't 
have enough money in some of our trust funds. So we are going 
to have to look at new ways to recapitalize, I think, some of 
those. Those are the kind of things we would need WRDA 
reauthorization to do.
    Senator Cardin. And I think our Committee supports a WRDA 
bill. So we will obviously be working closely with you as to 
how these emerging issues require congressional participation.
    The Corps manages the water levels beyond dams by using 
the, down through natural river systems by using the terrain, 
et cetera. On the Atlantic coast, of course, successfully use 
natural beach and dune systems to protect the town of Ocean 
City. As I said in my opening statement, the replenishment work 
that was done there, the dune work that was done there, saved 
significant property damage from Irene and Lee.
    It has been estimated, not counting the damage that was 
saved as a result of the recent storms, but $250 million has 
been saved in property damage, because of what we call the 
green infrastructure that has been used along the Atlantic.
    My question to you is, should the Corps be investing 
greater investments in protecting floodplains, routine 
renourishment of beach systems and other so-called green 
systems to manage risks in the future?
    Ms. Darcy. Senator, I think that your examples are good 
ones, because they show that yes, indeed, the beach 
renourishment projects have been effective in replenishing the 
beaches, as well as being a storm reduction way of preventing 
some future damages.
    Senator Cardin. I would just point out, the budgeting here 
become challenging. I know that you are really being stretched 
as far as your budget is concerned. But on these green 
infrastructures, it is demonstrated that it saves money, it 
saves property damage for the people in the region. I think the 
more that we can use some of these natural areas, the better 
off it is going to be for saving the loss of life and property. 
I know it is challenging, but we would urge you to find 
creative ways to do this.
    Let me ask just one final question. The Corps has multiple 
responsibilities, saving life, saving property and supporting 
the commercial waterway traffic. Do these missions conflict? Do 
we need to reflect again as to how you can carry out your 
missions simultaneously?
    Ms. Darcy. Senator, I would say that they don't conflict. 
But they do compete for resources. As pointed out in the 
instance of the floods, we need to prioritize our resources for 
life and safety in this instance. As I say, they compete for 
resources and limited Resources.
    Senator Cardin. Well, it seems like money seems to be your 
problem right now. Clearly, we have challenges in trying to 
manage the demand for commerce as well as to protect life and 
property. I was listening to Senator Baucus' comments, not only 
about the river diversions, but about the priorities. It seems 
to me that we may need to reflect as to what our priorities are 
and to allocate Resources consistent with that. There are going 
to be limited resources for the foreseeable future.
    With that, let me turn it over to Senator Boozman.
    Senator Boozman. Thank you, Senator Cardin. I would like to 
followup on his essentially talking about resources. Again, 
Secretary Darcy and then General Walsh, I understand, Secretary 
Darcy, that you have exercised your emergency authority to 
transfer funds from other appropriations accounts to respond to 
the flood and begin doing the repairs, which again is quite 
appropriate.
    I guess what I would like to know is some examples of the 
kind of projects that may suffer as a result of the transfers, 
and then also, really some specifics about what resources we 
actually need, so that the Corps can repair the damage to, for 
instance, the Mississippi River and Tributaries project and 
have it ready for the next flood season, so that we don't have 
you here then after that is all over, complaining bitterly that 
it didn't work.
    So if you would respond. And before you do respond, I want 
to thank all of you. I know that you worked very, very hard, 
and this has really been a great trial, and the system held up 
very, very well. Again, those things don't just happen, like 
you say. That is a lot of hard work.
    Secretary Darcy.
    Ms. Darcy. Senator, we are currently assessing what the 
ultimate damages have been from the floods, both the 
Mississippi and Missouri, as well as the damages from Tropical 
Storm Lee and Hurricane Irene. We are looking at $2 billion 
that we need in order to repair and restore the system to the 
pre-flood conditions. Your question about the transfers, so far 
we have transferred $212 million from other accounts into the 
flood control and coastal emergencies account. We will continue 
to look at other ways to transfer money. We have monthly 
requirements that we have to fulfill, because it is emergency 
response.
    However, we are evaluating those dollars individually, so 
that we don't create a situation where we are taking it away 
from another life safety project. We are looking in the out 
years, sort of the end of 2012, to take money that won't be 
spent until then and moving that up into transferring it now 
for this immediate need.
    General Walsh. Thank you very much for the question, 
Senator.
    While we were working through the flood, we had already put 
together our damage survey assessment teams, so that as the 
water was going down, we were able to look at those parts that 
needed repair of the Mississippi River and Tributaries project. 
From that we put together a list of 93 prioritized portions f 
the Mississippi River and Tributaries project that needs 
repair. And that comes to about $800 million just for those 
repairs. And I put another team together to look at the 
system's performance. And that systems performance team is also 
looking at the funds needed to bring that together.
    As well as putting together an inter-agency recovery task 
force with the 7 States and 14 Federal agencies gathering 
together to see what resources that we have to put the system 
back together and make sure everybody understands where we are 
going to work with that. To date, there are $73 million came to 
the Mississippi River and Tributaries project, or my division, 
out of that $800 million required.
    So there is a concern of a flood of a lesser magnitude 
having significant impact through next year.
    Senator Boozman. Thank you. And again, that type of work is 
so important as you go forward. I think you have heard a lot of 
interest in really trying to get that information so we can be 
of help, through WRDA bill or whatever. I do think, Mr. 
Chairman, that the communication back and forth will be so 
important, so that we can move forward and get this stuff 
accomplished.
    Thank you very much. I yield back.
    Senator Whitehouse.
    [Presiding] Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman, and thanks to all 
of you for your work and service, particularly in this 
extraordinary flood event and this disaster.
    I just want to step back and make sure we have the big 
picture. Madam Secretary, what is the total estimate of damage 
from this year's flooding events from the Corps' perspective, 
in terms of all repair work that is necessary because of all 
the extraordinary dredging, et cetera? What would that total 
dollar figure be?
    Ms. Darcy. That is the $2 billion figure, Senator, and that 
includes the impacts from dredging as well.
    Senator Vitter. OK. And what amount of money is the 
Administration asking in terms of extraordinary appropriations 
in light of that?
    Ms. Darcy. At the moment, there is no request for a 
supplemental appropriation.
    Senator Vitter. I thought some Corps funding was already 
built into an appropriation request we have, to the tune of 
about $800 million now?
    Ms. Darcy. I don't believe so, Senator, but I will check.
    Senator Vitter. OK. What is the Administration's plan in 
terms of any extraordinary funding request?
    Ms. Darcy. At this time, there is not a plan for one. But 
it is hopefully still going to be under consideration.
    Senator Vitter. So as of now, $2 billion just has to come 
out of your hide in terms of ongoing projects, ongoing 
operations?
    Ms. Darcy. That is correct.
    Senator Vitter. Is that sustainable?
    Ms. Darcy. It is going to have to, we have to do these 
repairs, so we have to find the money somewhere. We are going 
to have look at out years, everything has to be on the table. 
And as I said, we are looking to the out year projects, things 
that aren't scheduled to be funded until later next year. But 
we are running out of those kinds of projects, and it is going 
to come from some other existing balances that we have.
    So we are trying to be creative and looking at that. We are 
also looking at what we currently are operating under the 
continuing resolution to see if there is any money in that from 
now until November that we can use.
    Senator Vitter. So if no supplemental request is made, what 
would be the top priority items that will be stolen from and 
that will be sacrificed? What sorts of things at the top end of 
the list in terms of priority needs and projects?
    Ms. Darcy. They would be projects that, as I said, the 
funding is not scheduled until the end of next year, so we 
would take that money and use it now.
    The types of projects, all projects are under 
consideration. But of course, the one that we will probably 
look to last are those that are life safety.
    Senator Vitter. In your testimony, Madam Secretary, you 
also refer to a document that ``would serve as a reference 
guide for future flood risk management.' When do expect that to 
be completed?
    Ms. Darcy. The document that you are referring to I think 
is the one we hope to have by the end of December. I would need 
to confirm that for you.
    Senator Vitter. OK, if you can confirm that for me. Will 
that document incorporate this past year's experience? 
Obviously you have a wealth of brand new data, particularly in 
terms of the Mississippi River system that by definition is as 
up to date as possible in terms of an extraordinary event this 
past year. So will that new information and new data be 
incorporated into this document by the end of the year?
    Ms. Darcy. Yes.
    Senator Vitter. And will that be the new operating manual 
moving forward?
    Ms. Darcy. No, Senator, it won't be the new operating 
manual for the Missouri, if that is what you are referring to. 
Or the operating manual for the MR&T.
    Senator Vitter. What is the process to update the operating 
manual in both cases? What is the time table for that?
    Ms. Darcy. I am going to defer to General McMahon from 
Missouri and General Walsh from Mississippi.
    General McMahon. Thank you, Senator, ma'am. There are 
several means, Senator Vitter, to make adjustment to how we 
manage the system. Annually we go through what we call the 
annual operating process, and that is a public process that 
begins next Monday in Omaha. We will conduct a series of eight 
public meetings in each of the eight Basin States. That will 
feed our immediate plans for how we anticipate operating the 
system through calendar year 2012.
    The master manual that was alluded to earlier is the 
document that backstops the annual operating plan, and it is 
the document that fundamentally allocates across eight 
authorized purposes how water is allocated to meet those eight 
authorized purposes. And that is a public process. We have 
discretionary authority to adjust that on a short-term, I mean 
1-year basis.
    But longer term, we need to go through a public process 
that is----
    Senator Vitter. I don't want to cut you off, but my time is 
basically up. In general, what is the time table for updating 
that big manual?
    General McMahon. Well, it will fundamentally depend, but 
the independent external review of the water management 
operations will help us decide whether or not to undertake that 
revision and to what scope and scale, based on the 
recommendations that come from that panel.
    Senator VItter. Isn't the preliminary evidence pretty 
strong that given this extraordinary event and given very new 
data that this is the moment in time you would want to update 
the manual?
    General McMahon. Yes, sir, I would say that we have a new 
hydrological data point that makes us take that into 
consideration very seriously.
    Senator Vitter. And again, real broad brush, what is a 
realistic timeframe for updating that long term manual?
    General McMahon. It is hard to say, but I would say 
anywhere from one to X years.
    Senator Vitter. X is pretty open-ended.
    [Laughter.]
    Senator Vitter. I just want to point out that that gives us 
the possibility of many additional flood seasons with an 
arguably outdated manual, and given the extraordinary nature of 
this recent event, I would encourage a real focus on updating 
the long term manual relatively quickly.
    General McMahon. Yes, sir.
    Senator Cardin.
    [Presiding] Let me thank you for not only your testimony 
and appearance here today, but for your service to our Country. 
We know these are very trying times and we very much appreciate 
the professionalism in which you operate these very stressful 
issues. So thank you again, and that will complete this panel.
    We now turn to our next panel. We have a number of 
interests represented, including broad national perspectives as 
well as representatives from across the impacted region. We 
welcome Dr. Gerald Galloway, with the Department of Civil and 
Environmental Engineering at the University of Maryland. Very 
proud to have a person from the University of Maryland here.
    Mr. Larry Larson, the Executive Director of the Association 
fo State Floodplain Managers. Mr. Buzz Mattelin, the President 
of the Lower Missouri Coordinated Resource Management Council, 
and the President of the Montana Association of Conservation 
Districts. Mr. Terry McGean, the Civil Engineer for Ocean City, 
Maryland, who I referred to in my opening comments. Captain 
Mike Lorino, President of the Associated Branch Pilots. Mr. 
Brian Dunnigan, the Director of the Nebraska Department of 
Natural Resources. And Mayor A.C. Wharton, Jr., the Mayor of 
Memphis, Tennessee.
    I thank you all very much for your patience, and I am going 
to ask that you try to condense your opening comments to three 
to 4 minutes. We will let you go a minute over if you need to. 
The reason is that we do need to adjourn the hearing by a 
quarter of 1. So with that in mind, we will start first with 
Dr. Galloway.

 STATEMENT OF GERALD E. GALLOWAY, PE., PH.D., GLENN L. MARTIN 
   INSTITUTE PROFESSOR OF ENGINEERING, UNIVERSITY OF MARYLAND

    Mr. Galloway. Thank you very much, Mr. Chairman. It is a 
privilege to be here. I will try and go very quickly.
    The disastrous floods of 2011 impacted many parts of the 
Country. While that is a critical focus of this meeting today, 
I would like to talk about the future and where we are going to 
go with floods that might hit us as we move forward.
    I would make two comments about the testimony we have just 
heard from Secretary Darcy and the Corps leaders. It is 
interesting that on the Missouri River, the issue of how it is 
to be operated, as Senator Baucus pointed out, has been the 
subject of much discussion. One National Academy report that 
said the answer lies here on the Hill with a resolution of 
conflicting laws and regulations and guidance on how to operate 
it.
    The second part of that is the court case in 1994, or 2004, 
where a Federal judge looked at the competition for the uses 
and made the decision that the Congress needed to do something 
about that. So I think there are two issue with management of 
the Missouri that require some work up here.
    I would note that, other than the Mississippi River and 
Tributaries Project, and the TVA, Miami of Ohio Conservation 
District, the Nation essentially does not have a flood control 
system. We have talked about that, we have used that term. 
There is no national plan. We don't have a national goal or 
objective for flood risk management. And climate change, sea 
level rise and population growth are going to make that even 
worse.
    I would like to give you a few thoughts on where we should 
go. I use the term flood risk management instead of flood 
control, because across the globe, everywhere in the world, 
there is a shift from focusing on reducing flood damages by 
trying to control where floodwaters go, to accepting the 
premise that floods are natural events and that in the long 
run, only through a portfolio, as you just mentioned, of green 
and non-structural infrastructure, plus the normal structure 
infrastructure, can we minimize or reduce the damages.
    Flood risk management also accepts the proposition that 
absolute protection is not possible. And even the Dutch have 
come to this realization. Let me highlight a few reasons why 
the current approach we are taking is not up to the task at 
face. I have four major points that I will quickly go through.
    First, in a 1994 White House study after the Great 
Mississippi flood, I happened to lead that study and reported 
it to this same Committee. We pointed out that we have no goals 
and objectives in our efforts to deal with flood and that the 
responsibility for how we manage floods is scattered between 
the Federal, State and local governments, and it is not well 
defined. Clearly, we need to address this issue and come up 
with some sort of a solution as to who is responsible for what.
    In WRDA 2007, you directed the Secretary of the Army to 
within 2 years revise principles and guidelines to reflect new 
flood-related policies that you included in that WRDA. Nearly 4 
years later, that hasn't reached the Hill. State and local 
governments have responsibility for land use management, and in 
many cases do little to stem development. That continues in 
high-risk areas.
    In most cases, until recently, States have been singularly 
absent from the management and oversight of levees, it has been 
left to the Federal Government, and have varied involvement in 
oversight of dam safety. Individual property owners don't share 
in the responsibility as much as they should. The abysmal 
participation of people who live in the floodplain and the 
National Flood Insurance program, even when it is mandatory, is 
somewhere near 25 percent penetration, indicates that 
floodplain residents don't see a need for them to carry part of 
the responsibility.
    The second issue: we face significant flood risks in this 
Country and many people who live in the floodplain do not 
understand or appreciate the risk they face. We do not know or 
don't seem to be wiling to find out the national exposure to 
the risk of flooding. Technology would permit us to do this if 
it was resourced.
    Third, much of the populated flood-prone areas across the 
Nation sit behind or below uncoordinated amalgam of Federal, 
State and local levees and dams, the condition and integrity of 
which may not be known. Estimates indicate there are 100,000 
miles of levees in this Country, only 14,000 of which fall 
under the Corps of Engineers and some other form of Federal 
oversight.
    American Society of Civil Engineers in its 2009 report card 
assigned grades of D minus to levees and D to dams, and there 
is no indication the picture is getting any better. Four years 
ago, in WRDA 2007, you, recognizing the urgency of the 
situation, established a levee safety program and directed the 
National Committee on Levee Safety to look after the situation 
and make recommendations to the Congress in 180 days.
    In January 2009, they turned in their report to the 
Administration. But it has not yet been officially sent to you. 
You have not acted on it, even though the report is available 
to you. In essence, nothing has been done at the national level 
to move ahead on the well thought-out recommendations of this 
Committee that do require active State and local involvement.
    The third part of the levee and dam challenge is funding. 
The Congress and the Administration must come to grips with 
funding for this infrastructure. ASCE suggests that it would be 
a 5-year, $50 billion burden to deal with the levees, and we 
have heard some of that this morning, or a $5 billion, 5-year 
program for dam safety.
    Doing nothing increases the problem and puts more people at 
risk every day. If levees, dams and flood walls and other 
related structures remain part of the national approach to deal 
with flooding, and they have to be, then Resources must be 
identified and provided within a Federal, State, local, private 
partnership to ensure that what is in place will in fact do its 
job. Every day that funding is postponed, the problems grows 
larger.
    Fourth, we are not dealing with flood issues on a watershed 
basis. We talk about watersheds, we talk about integrated 
management but do not act that way. A flood-related project in 
one community can cause problems upstream and downstream. 
Congress continues to authorize individual projects without 
fully understanding their watershed context. That is not the 
right way to go.
    Senator Cardin. We have to ask you to complete your 
statement.
    Mr. Galloway. I will conclude by just saying, managing 
flood risks presents a serious challenge, a challenge we have 
known about for two decades. It is time to do something about 
it.
    [The prepared statement of Mr. Galloway follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
      
    Senator Cardin. All of your statements will be included in 
its entirety for the record. Without objection. Thank you.
    Mr. Larson.

 STATEMENT OF LARRY A. LARSON, P.E., CFM, EXECUTIVE DIRECTOR, 
               ASSOCIATION OF FLOODPLAIN MANAGERS

    Mr. Larson. Thank you, Mr. Chair, and the Committee, for 
holding this hearing. I will truncate my remarks.
    First, I want to hope that the Committee recognizes as 
Gerry says that our flood control system really is an 
amalgamation of various things. It is dams and levees, but it 
is programs and various Federal agencies, we talk about, the 
Corps and FEMA, we have the NRCS watershed programs, NOAA, on 
and on and on. And then you throw in 2,000 flood-prone 
communities in 50 States who are the ones who really have prime 
responsibility for reducing flood losses and protecting public 
safety. So we have a mish-mash of activities that is going on 
in the Nation that comprises what we think of as our system.
    In 2008, in my view, we dodged the bullet. You can look at 
it two ways. We have talked a lot today about what worked. But 
I think it is important to recognize there was a lot of the 
systems, the so-called systems, that were really on the edge. 
We were very close to catastrophe. We had very close to 
Katrinas in many instances.
    Some of the reasons for that Senator Baucus talked about. 
Take the Mississippi River. We took away two-thirds of nature's 
floodplains. And then we wonder how we can constrain these 
maximum extreme flood events during those times of heavy 
flooding when she tries to reclaim that floodplain.
    In the northeast, as we have talked about, there are many 
different systems. There are really not as many systems as 
there are individual projects, most of these State and locally 
operated and not coordinated. And I am not sure that is all 
bad. That is just the way it is, and we need to recognize that.
    The question for 2011 is whether these floods were epic. 
The answer is, no, they weren't. I hate to tell you that, but 
they weren't. We need to recognize that they weren't, and that 
we are going to see more and more of these kinds of events. 
What is called a 1,000 year event in Nashville over the next 40 
years, with a couple more of those events, it is all based on 
statistics in the past, will now become a 100 year flood. So 
these things change over time. We need to recognize that.
    Our current systems and programs and policies and practices 
are inadequate. We need to recognize that. I think this year we 
really had a polo event; 2011 was a polo event.
    Let me mention four things quickly that I think you can 
address as overarching objectives. First, a comprehensive 
review of where we are with our policies in 20 and 50 years 
from now; two, assessing the Nation's infrastructure, as Gerry 
talked about, where we are, how many people are at risk and the 
rest; three, finishing up the P&G you asked the Administration 
to do; four, establish a national policy framework for flood 
risk management.
    Ms. Darcy was asked about that, and I think that is an 
important element we need to all talk about. How we manage dams 
and levees and coasts and rivers, it all happened under this 
rubric of a flood risk management approach. It is not flood 
control, it is flood risk management. And we need to think 
about how we do that.
    We have many other recommendations in our testimony and we 
would be pleased to work with the Committee to help make the 
Nation more sustainable and recognize the cost and benefits 
from flooding.
    [The prepared statement of Mr. Larson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Cardin. Thank you, Mr. Larson.
    Mr. Mattelin.

     STATEMENT OF BUZZ MATTELIN, PRESIDENT, LOWER MISSOURI 
  COORDINATED RESOURCE MANAGEMENT COUNCIL; PRESIDENT, MONTANA 
             ASSOCIATION OF CONSERVATION DISTRICTS

    Mr. Mattelin. Chairman Cardin, members of the Committee, 
thank you for this opportunity.
    I am a third-generation Montana farmer. I grow high quality 
durham wheat and malting barley and sugar beets on the Missouri 
River bottoms in northeast Montana. My family, for 97 years, 
has been living and working along the river, 80 miles 
downstream of Fort Peck, the first dam on the Missouri River 
system.
    In addition to running the farm business, I also represent 
irrigation interests on the Missouri River Recovery 
Implementation Committee, known as MRRIC.
    This was a difficult summer, dealing with the flood and 
watching floodwaters drown my crops. My heart goes out to all 
those who have suffered flood damages, especially those who had 
damages to their homes.
    Conditions responsible for the 2011 Missouri River flooding 
began in the fall of 2010. Fall rains resulted in wet soils 
prior to freeze-up. Frozen soil doesn't allow moisture from 
melting snow to enter the soil and the water runs off. Record 
Plains snowfall, 300 percent of normal in my area, melted and 
ran off, filling every prairie pothole, wetland in over half of 
Fort Peck's annual flood control zone.
    When the record rain came in May, it fell on saturated 
soils and it all ran off. The mountain snow pack had continued 
to grow and reached 141 percent of average. The combination of 
these conditions resulted in the record flooding of 2011.
    What could have improved flood response? Earlier 
recognition of the flood could have improved response. I don't 
blame the Corps. As a farmer who has watched a hailstorm wipe 
out a year's work and income, I understand what it is like to 
be at the mercy of nature. The Corps could not have foreseen 
the record rainfall. It is easy to judge with the benefit of 
hindsight. It is easy to work backward when you know the runoff 
totals. It is much harder when nature keeps throwing more water 
your way.
    The Missouri River master manual states the sooner a 
significant flood event can be recognized and appropriate pre-
releases of flow scheduled, an improvement in overall flood 
control can be achieved. Earlier recognition may have allowed 
some management flexibility or decreased the maximum releases. 
Average runoff above Sioux City, Iowa is 24.8 million acre 
feet. By September, it ended up 61 million acre feet.
    Operational flood tunnels at Fort Peck would have increased 
the safety during the flood. The two flood tunnels at Fort Peck 
were not available for use because of severe vibration at the 
gates. At some of the other dams, the spillway was shut down 
for inspection and repair. This wasn't an option at Fort Peck. 
Authority has been requested for replacement, but not approved.
    What worked well? The mainstream dams and structures 
performed as designed and the Corps operated the system in 
accordance with the master manual and existing laws. The system 
afforded downstream residents time to prepare, plan and remove 
possessions from harm's way and the system lessened the 
severity of the flood.
    The National Weather Service river forecast was extremely 
helpful. This forecast predicts river stages at gauging 
stations 5 days forward.
    How about a way forward? Let's not overreact with abrupt 
changes to the master manual. It doesn't make good sense to 
manage the system for an event that occurs once in 500 years. 
The master manual is the foundation for long-term decisions and 
investments, both private and public. With the well-vetted 
revision completed in 2003, the master manual has provided 50 
years of stability in a contentious basin. The master manual 
provides an equitable path to management of the system for 
flood control, hydropower, navigation, water supply, irrigation 
and recreation and wildlife.
    I can think of at least two ways to improve flood control 
in the Basin. First is to provide more space in the reservoirs, 
but less stored water is at a detriment to other authorized 
purposes. My choice, and the second, is to improve recognition 
of significant events. The annual operating plan begins each 
new year at normal or average starting point. We rarely, if 
ever, have an average year.
    The Corps does a good job of incorporating mountain snow 
pack, Plains snow pack and short-term precipitation and AOP, 
but fails to use variables like soil moisture and climatic 
trends. Soil moisture data is readily available in weekly crop 
reports. We should also look at El Nino and La Nina events. 
When you overlay past La Nina events with high runoff years in 
the Basin, there are definite correlations during the high 
runoff years in the 1970's, 1990's and this year. Pacific 
Decadal Oscillation, or PDO, is another ocean temperature 
phenomenon that shows promise as a predictor of precipitation 
in the Northern Plains.
    We also need to ensure adequate funding for USGS stream 
gauges. As Federal budgets have tightened, the share that non-
Federal partners pay has increased. The USGS gauges are a 
critical link in flood control and can't be dependent on soft 
sources of funding.
    I will close with something that a farmer friend said to me 
as he was dealing with the flood. Without any bitterness, he 
said, ``The river has been good to me for many years, but this 
year belongs to the river.'
    [The prepared statement of Mr. Mattelin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Senator Cardin. Thank you, Mr. Mattelin.
    Mr. McGean.

  STATEMENT OF TERENCE J. McGEAN, P.E., CITY ENGINEER, OCEAN 
                         CITY, MARYLAND

    Mr. McGean. Thank you.
    The Town of Ocean City is located about a 3-hour drive east 
of here, on a barrier island on the Atlantic coast of Maryland. 
Although the census lists Ocean City's population as only about 
7,000, we host over 8 million visitors each year, and on an 
average summer weekend, our population swells to 300,000 
people. This makes Ocean City the second largest city in 
Maryland in the summer time.
    Ocean City is 10 miles long, and encompasses a total area 
of just three and a half square miles. Within that small area, 
we have 28,000 living units valued at over $10 billion. As a 
barrier island community, our greatest risk is ocean flooding 
from tropical and extra-tropical storm events.
    In 1985, Tropical Storm Gloria passed just offshore of 
Ocean City. The storm destroyed the Ocean City boardwalk and 
damaged or undermined the foundations of numerous buildings. 
With virtually no beach or dune system after Gloria, Ocean City 
was at a crossroads. It was right around this time that beach 
replenishment became recognized shore protection strategy and 
the Miami Beach project was completed and proving to be very 
successful.
    Studies showed that if a beach platform itself could be 
stabilized, then a positive cost benefit ratio for Federal 
participation in a shore protection project could occur. To 
that end, the local and State governments completed what became 
known as Phase One of the beach replenishment project. Using 
100 percent local funds, the Ocean City Beach was widened to 
create a suitable foundation for a Federal project.
    In 1990, the Federal project, formally known as the 
Atlantic Coast of Maryland Shoreline Protection Project, began 
construction. The project built 8.3 miles of new sand dune, a 
one and a half mile seawall protecting the boardwalk, and a 
storm berm along the entire oceanfront. The project cost $48 
million and was cost shared between Federal and local 
governments.
    The project was nearly complete in 1991, when a series of 
northeast storms, including the infamous Perfect Storm that in 
previous years would have several damaged Ocean City, struck. 
Ocean City suffered no damage except for some lost sand. And 
while adjacent beach town businesses had to close, we were open 
for business and didn't miss a beat.
    The success of the project continues to this day. Total 
damages prevented are now $330 million. Total project costs, 
including phase one of 100 percent local money, initial 
construction of the Federal project, and periodic 
replenishments total just over $100 million with the Federal 
share at just over $50 million.
    Although the prevented damages numbers are impressive, they 
don't tell the whole story. Prior to beach replenishment, the 
assessable base of Ocean City was $3 billion, and we 
contributed $35 million in annual Federal tax revenue. Today 
the assessable base is over $10 billion and over $75 million in 
Federal tax revenue comes from the city annually.
    On Saturday, August 28th, Ocean City was literally in the 
eye of the hurricane. You can see us there and you can see 
Hurricane Irene. The storm came in our busy summer season, and 
expecting the worst, we successfully evacuated the town. When 
the sun came up Sunday morning, I sent out our damage 
assessment teams. But instead of toppled buildings and 
destroyed infrastructure, we found loose siding and a pothole 
in the city parking lot. By noon on Sunday, our business was 
open. Visitors were streaming back into town. And we had one of 
the busiest Labor Day weekends we have had in years.
    In some ways we got lucky. The storm passed quickly and 
came through at low tide. But I would call your attention to 
this photograph taken in Ocean City 25 years ago just after 
Gloria, a storm very similar to Irene. Now imagine we never had 
beach replenishment. We would start from this point and have 25 
years of erosion at two feet a year, plus additional damage 
from nor'easters and hurricanes. That would have been the 
condition of Ocean City, or what was left or us, as Irene 
struck.
    Now look at Ocean City today. This photo shows the exact 
same area of the beach taken last week. These projects work. 
Irene served as a reminder that the damages from a hurricane 
are not limited to the coast. In Ocean City, Irene demonstrated 
that by recognizing the risks associated with strong storms, 
then adopting strict building codes and investing in effective 
flood protection measures like beach replenishment, the impact 
from these storms can be significantly reduced.
    Thank you very much.
    [The prepared statement of Mr. McGean follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  
  
  Senator Cardin. Thank you, Mr. McGean.
    Captain Lorino.

    STATEMENT OF CAPTAIN MICHAEL R. LORINO, JR., PRESIDENT, 
                    ASSOCIATED BRANCH PILOTS

    Captain Lorino. Thank you, Mr. Chairman, good evening.
    Mr. Chairman, before I touch on some of my concerns with 
the 2011 high water situation on the Mississippi River system, 
I would like to thank the Corps New Orleans District for doing 
a great job, not only this year, but in past years as well. 
When the Corps district is funded adequately and equipped 
adequately, they do a fantastic job.
    Mr. Chairman, this brings me to our primary issue. How can 
we adequately fund the Corps' budget to properly maintain the 
Mississippi River system? I can assure this Committee it is 
well within all of our best interests to collaborate and solve 
this problem. Combined, the five ports on the Mississippi River 
system make up the largest port system in the U.S., the second 
largest in the world.
    More than 10,300 vessels transited through Southwest Pass 
going either in or out of our river system in 2010. Each of 
those vessels was safely navigated through one of the most 
treacherous and demand river systems in the world. Failure to 
properly maintain Southwest Pass to project dimensions is a 
safety issue for all of us who live and work on the river 
system. But just as importantly, it is a substantial economic 
threat to our Nation.
    We handle, Mr. Chairman, 30 percent of the Nation's oil 
imports, 60 to 70 percent of the Nation's grain exports. Those 
numbers can be reduced drastically without proper maintenance 
of the shipping channel. The issue is complex, but the bottom 
line is simple. Without adequate funding for dredging and 
maintenance, you cannot get American-made and grown goods on 
ships for export with high river conditions. The demand for 
these products exist. But if shipping companies cannot access 
American goods, they will go elsewhere. I don't have to tell 
you what that would mean for our farmers, millions of 
individual jobs and our Nation's economic bottom line.
    The problem we see today comes from two sources: constant 
under-funding of the Corps budget and the mis-use of the Harbor 
Maintenance Trust Fund, for which it was instituted to ensure 
necessary funding for our ports and harbors. For the past 12 
years, the New Orleans District has been underfunded in their 
O&M budget. Next year they will be underfunded by at least $20 
million once again, and that is if nothing goes wrong, such as 
another high river, for example.
    To their credit, for the past 12 years, the Mississippi 
Valley Division of the Corps has understood how critical the 
Mississippi River system is. They have reprogrammed funds from 
other projects to accommodate necessary dredging.
    Reprogramming of funds will no longer occur. The Corps now 
operates under a white paper that restricts funding usage. And 
this new policy eliminates the possibility of dredging enough 
to maintain project dimensions at a particular time.
    In one of the many meetings I had with the Corps on this 
issue, I discussed the economic impact associated with cargo 
loss and the response was, it will be shipped from other ports 
in the U.S. Mr. Chairman, that is not correct. This is very 
inaccurate. When I further stated we could have a grounding or 
even an oil spill, I was told, maybe something has to bring 
this issue to light.
    This brings me to serious concerns that the change in the 
Corps' policy regarding funding does not reflect sufficient 
priority to the Mississippi River system. Instead, it appears 
to be more about political posturing and an effort to garner 
further necessary funding for the Corps. We are being used as a 
pawn in a very dangerous game.
    Mr. Chairman, this is not an acceptable way to manage the 
busiest and most complex waterway system in the U.S. and 
possibly the world.
    Please refer to the slide presentation that we have. I 
would like to review the diagrams that demonstrate the impact 
of loss of project dimensions, depth and width, the possibility 
of a collision in Southwest Pass, which could shut off 
America's heartland.
    [Slide shown.]
    Captain Lorino. Mr. Chairman, the first one is, if you 
would look there and see where the red meets the yellow, that 
is the entrance to American heartlands. If that area is closed, 
everything shuts off. Everything. Nothing moves in and out the 
river system.
    [Slide shown.]
    Captain Lorino. Next one. That is two ships that are 
passing in a normal channel. You have 300 feet between those 
two ships, 300 feet between two ships that are about 1,000 feet 
long and 150 feet wide.
    [Slide shown.]
    Captain Lorino. When you reduce the channel, Mr. Chairman, 
from 750 to 650, you can see it goes down to 195 feet wide, 
very narrow.
    [Slide shown.]
    Captain Lorino. No. 5, 600 to 500, we now have 100 feet to 
pass those two ships, as was done last year. When you get down 
to 400 feet, Mr. Chairman, it is not a safe situation at all. 
But it has been done, because we have to keep our river system 
open. But the fact that just because we lose project draft and 
dimension is a safe issue, it is really not. It is something 
that has to be stressed and maintained at all times. Both 
project width and dimension.
    Senator Cardin. I am going to have to ask you to complete 
your statement.
    Captain Lorino. Yes, sir.
    Mr. Chairman, I just wanted to touch on these, and I thank 
the Committee, and I will be happy to answer any questions.
    [The prepared statement of Captain Lorino follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
   
    Senator Cardin. Thank you for your testimony.
    Mr. Dunnigan.

 STATEMENT OF BRIAN DUNNIGAN, DIRECTOR, NEBRASKA DEPARTMENT OF 
                       NATURAL RESOURCES

    Mr. Dunnigan. Good afternoon, members of the Senate 
Committee on Environment and Public Works. I will be brief.
    I would like to begin by reporting that the Governors or 
their representatives from eight Missouri River Basin States 
met with the Corps yesterday to coordinate their efforts and 
actively address needed matters related to Missouri River 
flooding. This was not the first meeting of the group, as most 
of the Governors also attended an August 19th meeting in Omaha 
to discuss concerns related to the flood.
    In that first meeting, Governors or their representatives 
from seven of the eight States signed a letter indicating a 
clear consensus that flood control must be the highest priority 
in the operation of the Missouri River mainstem system. It also 
strongly requested that the Corps thoroughly examine future 
management of the river in light of this year's precipitation 
and flooding, and report to them on alternate actions to reduce 
future high flow events.
    Finally, it was requested that the Corps provide 
recommendations for specific operational changes to afford 
greater future flood protection and consult with States and 
tribes in selecting and implementing any changes.
    In yesterday's followup meeting, the Governors discussed 
opportunities to increase future flood control focus and 
discuss recovery priorities and coordinations. One point that 
can be taken from these meetings is that the Basin Governors 
are very serious about taking action to reduce the risk of 
future flooding and the level of future flood damages as well 
as address recovery priorities.
    We don't have a full reliable tally of damages at this 
time. But we have received data in Nebraska on over $155 
million in public infrastructure damages eligible for 
assistance. We had disaster declarations for 13 counties along 
the Missouri River, and another three counties in the North 
Platt Basin on the other end of the State.
    Overall, our experience with the Corps activities during 
the flood was positive. We generally received invaluable 
assistance from the Corps personnel and are very appreciative 
of its assistance on levees and emergency mitigation. One 
outcome I hope to see come from future efforts is improved 
communication in both the spring rise situations, where 
flooding becomes a possibility, and during the emergency flood 
situation itself. Flooding involves a wide spectrum of State 
and local government responses, where having the best possible 
information as soon as possible can help result in better and 
more cost-effective decisionmaking.
    While a thorough examination of the 2011 Missouri Basin 
flood will likely identify some areas where different actions 
could have been taken, the most important controllable outcome 
is how we incorporate new data and perspectives into future 
decisionmaking in terms of both mainstem system operations and 
how those of us in the Basin prepare and respond. In Nebraska, 
it has resulted in a strengthened focus on flood control as a 
system priority. We look forward to working with the Corps of 
Engineers as they re-examine their activities and options in 
light of new information and Basin priorities.
    Thank you.
    [The prepared statement of Mr. Dunnigan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Cardin. Thank you very much, Mr. Dunnigan.
    Mayor Wharton, thank you for being here.

 STATEMENT OF HON. A.C. WHARTON, JR., MAYOR, CITY OF MEMPHIS, 
                           TENNESSEE

    Mayor Wharton. Thank you, Senator. Thanks for convening the 
hearing. I would like to thank Senator Alexander for inviting 
us up.
    I will likewise be brief. Of course, I am from Memphis, 
Tennessee, which is right in the tip of the delta there. I join 
the other witnesses in underscoring the fact that for the most 
part, our systems, as aged as they may be, did indeed work. We 
want to thank the Corps of Engineers for working with us as we 
installed some of the floodwalls, which had never been used, 
quite frankly, and again, are quite up in age.
    In spite of working so well, the flood did impact our 
community. Fortunately, though, the impact was not as severe as 
it could have been. St. Jude's Children's Hospital, which is 
located just a few blocks from the river, was spared some 
massive flooding because the system did work.
    I might add, though, that the pumping station that kept St. 
Jude's from out of the flood is 95 years old. And the key point 
I would like to leave is that while the system worked this 
time, it has aged so that we are not confident that in future 
floods of this magnitude that these aging structures will be 
able to withstand the pressure placed upon them by floods of 
this magnitude.
    So I would hope that we would take away from these hearings 
some estimate and some time table for beginning, while we have 
the time, to reinforce the aging infrastructure. As Senator 
Alexander pointed out, President's Island, which is leading us 
out of the economic slump, it is almost a perfect storm, as 
someone just indicated, we have high unemployment, but over the 
past 18 months, we have been able to place about 2,000 jobs 
with Electrolux, Mitsubishi, Nucor and other employers coming 
in there. We want to make sure that those investments are 
indeed safe.
    As we look at our initial estimates, we are looking at $20 
million to $30 million to repair. You saw the channel that was 
threatened across President's Island, dredging work of $2.5 
million, shoreline work of another $5 million. So again, a very 
costly occurrence. We wish to thank the Corps again for working 
with us, helping us maintain and install the structures. And we 
ask that they continue their diligence in forecasting into the 
future as to the life of these structures and what it is going 
to take to make sure that they are able in the decades to come 
to withstand future floods of this and perhaps greater 
magnitude.
    Thank you so much for holding the hearing.
    [The prepared statement of Mayor Wharton follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Cardin. Thank you for your testimony. Thank all of 
you for your testimony, and thank you for condensing the 
presentation in light of our time restraint. We very much 
appreciate that. We assure you, your entire remarks will be not 
only made part of the record but will be used by the Committee 
as we investigate how to proceed.
    Let me turn first to Senator Johanns for questioning.
    Senator Johanns. Let me say to each of you, I appreciate 
your being here. Brian, a special thanks, coming out from 
Nebraska.
    Mayor, we hadn't met before, but I think you and I are 
working on a trail in your community. I have been working with 
some business people there.
    Mayor Wharton. Charlie McVain.
    Senator Johanns. Yes.
    Mayor Wharton. We were in Omaha earlier this year.
    Senator Johanns. Yes. It is funny that in Nebraska, a guy 
would work in a trail. But I happen to know some people there.
    Mayor Wharton. You will be able to ride a bike from Memphis 
to Omaha.
    Senator Johanns. Yes. We like that idea.
    Without digging into questions, because I think we had 
great testimony and all of your statements will be a part of 
the record, Mr. Chairman, if I might just offer a thought. As 
we think about the next year coming up, I have to imagine, 
everybody on this panel is nervous. Because many of the things 
that built up to create the problem this year are not only 
there now, but they aren't likely to improve any between now 
and next spring when we start to deal with runoff and those 
issues.
    The second thing that I think we have all learned from this 
hearing is that we have about a $2 billion issue hanging out 
there that quite honestly, my concern is that we just didn't 
get a good sense of how that problem is going to be solved. 
There apparently is no supplemental coming our way. I 
appreciate it is very difficult economic times and budget time 
and somehow, some way, we have to figure out how to fund these 
things.
    But the reality is, I am a little bit worried that we are 
going to hit a drop-dead date here where, in the Midwest, there 
is no construction season left. If we appropriate the money in 
December, it isn't going to help much, because you can't do 
construction during the winter months that needs to be done.
    So at the conclusion of this hearing, I am hoping that we 
feel a sense of urgency to try to solve this problem. I did not 
hear today any good way of solving it. But somehow, some way, 
Mr. Chairman, I am hoping that Republicans and Democrats, in a 
very bipartisan way, can sit down and talk through this and 
figure out how to get the funding and get it quickly so we can 
take advantage of the limited days that are left in this 
construction season and try to repair some of the damage that 
is out there.
    Then the final thing I would say to all of you who have 
worked on these issues longer than I have, obviously, I just 
want to encourage you, continue to work with the Corps, 
continue to work with us. We have a whole host of problems out 
there.
    Mayor, when you say that your St. Jude's Hospital, which is 
world-renowned, I grew up knowing about this hospital, was 
saved by a pumping system that is nearly a century old, that 
has to be a concern to everybody. Because I guarantee, we have 
those problems throughout the system.
    I had a choice of asking questions or saying a few words. 
Thank you, Mr. Chairman, for your patience. I decided it would 
be best use of my time to say a few words.
    Senator Cardin. Well, Senator, I think you really 
summarized the circumstances extremely well, and I fully concur 
in your comments. There is a sense of urgency here.
    It is interesting, at this hearing, we had 20 witnesses at 
the witness table, just showing the interest, including nine 
Members of Congress. During the course of this hearing, nine 
members of the Committee have participated, which is a large 
number, considering this is a day in which there are a lot of 
committees that are meeting.
    So I think there is a great deal of interest. And as our 
Chairman and Ranking Member said at the beginning of this 
hearing, this is an area where we have bipartisan agreement 
that we need to do what is necessary to protect the people of 
this Country. So I agree with Senator Johanns, I think this is 
a matter of urgency. We have to move forward.
    Dr. Galloway, I think your challenge to us was absolutely 
right. We do need to develop a national plan for flood risk 
management. I like that term, flood risk management. Yes, we 
use traditional structures such as dams and levees, but we also 
use the green infrastructure that we have been talking about. 
And it is the management issues. We can't prevent these extreme 
conditions, but you certainly can manage them in a much more 
effective way so the public knows the risks and you take 
appropriate action to minimize it. So we don't have as much 
damage to repair after the fact. I thought that was well done.
    And to Mr. McGean, I just want you to know, your numbers 
updated our numbers. The direct savings were three to one if 
you include all government investments, six to one from the 
Federal Government's investment.
    But your last number I thought was the most telling. And 
that is, the work that we have done on green infrastructure has 
actually brought in more money to the Federal Treasury. More 
money to the Federal Treasury. If you took a look at that view 
of Ocean City and realized what the assessed values and 
revenues and tourism would have been if the renourishment 
programs had not been done, versus how it is today and what we 
were able to preserve and get back into business quickly after 
Hurricane Irene struck, then you know that the Federal 
Government, as recipients of tax dollars, got more money in as 
a result of its relatively modest investment over the period of 
time with $50 million.
    So I think that these projects enjoy bipartisan support for 
a good reason. They make good economic sense as well as 
providing the services that are important to the people of this 
Country.
    Captain Lorino, I have one question for you. Because your 
numbers really worried me when you got to that 400 foot level. 
Was that a temporary problem of obstruction? Or was that the 
failure to maintain channels at the appropriate width when you 
got to 400 feet? Because we don't want you at 400 feet.
    Captain Lorino. Well, Mr. Chairman, we are speaking today 
about 2011. I have been a pilot on the river for 33 years. And 
every year, you have high river. Every year you encounter the 
same type of situation that we had, it is only a different 
degree. But the answer to your question, sir, yes it was 400, 
it went down as low as 185 feet, to be quite honest with you, 
during a certain part of time.
    Then we had to lower the draft from 47 feet to 45 to 43. 
And when we say that, it is easy to say each foot represents a 
million dollars of cargo either in or out of the United States. 
So when I am asking for $20 million to maintain that channel 
and we lose a few ships, it is nothing. So the answer sir, is, 
it is very narrow. We try to do the best we can. The Corps does 
a fantastic job when they have funding.
    Senator Cardin. We agree with you, and our challenges on 
the East Coast are a little bit different. But maintaining our 
channels is critically important. I know some of the risk 
factors on the C&D Canal, trying to navigate that. We have been 
trying to get rid of those areas that present huge risks. It is 
a funding issue, and we need to make sure that that is done.
    I am going to keep the record of the Committee open for 
questions that may be asked by members of the Committee to you 
all. Because of the lateness of this panel, I would just ask 
your cooperation that if questions are proposed in writing that 
you would respond promptly to the Committee. Not quite as bad 
as Secretary Darcy did for Senator Whitehouse. If you could 
respond a little bit quicker, we would certainly appreciate it, 
and it would make our Committee record complete.
    Again, thank you for your patience. Thank you for your 
testimony and more importantly, thank you for what you have 
done to help build this great Nation and keep our people safe. 
With that, the hearing will stand adjourned.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
                                 [all]
</pre></body></html>
